<html>
<title> - WAYS TO IMPROVE AND STRENGTHEN THE INTERNATIONAL ANTI-DOPING SYSTEM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  WAYS TO IMPROVE AND STRENGTHEN THE INTERNATIONAL ANTI-DOPING SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2017

                               __________

                            Serial No. 115-9
                            
                            
                            
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-165 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6b745b786e686f737e776b3578747635">[email&#160;protected]</a>                       
                        
                        
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
H. MORGAN GRIFFITH, Virginia         DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
SUSAN W. BROOKS, Indiana             PAUL TONKO, New York
CHRIS COLLINS, New York              YVETTE D. CLARKE, New York
TIM WALBERG, Michigan                RAUL RUIZ, California
MIMI WALTERS, California             SCOTT H. PETERS, California
RYAN A. COSTELLO, Pennsylvania       FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     2
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9

                               Witnesses

Adam Nelson, American Shot Putter and Olympic Gold Medalist......    12
    Prepared statement...........................................    14
Michael Phelps, American Swimmer and Olympic Gold Medalist.......    16
    Prepared statement...........................................    18
Travis T. Tygart, Chief Executive Officer, United States Anti-
  Doping Agency..................................................    22
    Prepared statement...........................................    24
    Answers to submitted questions...............................   179
Rob Koehler, Deputy Director General, World Anti-Doping Agency...    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................   186
Richard Budgett, M.D., Medical and Scientific Director, 
  International Olympic Committee................................    39
    Prepared statement...........................................    41
    Answers to submitted questions...............................   199

                           Submitted Material

Subcommittee memorandum..........................................    75
Letter of February 23, 2017, from Christophe De Kepper, Director 
  General, International Olympic Committee, to IOC Honorary 
  President, et al., submitted by Ms. DeGette....................    83
Statement of August 30, 2016, National Anti-Doping Organizations 
  Summit, submitted by Mr. Murphy................................    86
List of National Anti-Doping Organizations Supporting the 
  Copenhagen Declaration of August 30, 2016, submitted by Mr. 
  Murphy.........................................................    89
Letter of December 8, 2014, from Travis T. Tygart, Chief 
  Executive Officer, and Dr. Edwin Moses, Chairman of the Board, 
  United States Anti-Doping Agency, to Sir Craig Reedie, 
  President, and David Howman, Director General, World Anti-
  Doping Agency, submitted by Mr. Murphy.........................    90
Letter of December 9, 2015, from Cammile Adams, et al., USA 
  Swimming National Team, to Cornel Marculescu, Executive 
  Director, FINA, submitted by Mr. Murphy........................    94
Letter of March 11, 2016, from Beckie Scott, Chair, World Anti-
  Doping Agency Athlete Committee, to Sir Craig Reedie, 
  President, World Anti-Doping Agency, submitted by Mr. Murphy...    96
Letter of January 25, 2015, from Sarah Konrad, Chair, United 
  States Olympic Committee Athletes' Advisory Council, to Thomas 
  Bach, President, International Olympic Committee, and Sir Craig 
  Reedie, President, World Anti-Doping Agency, submitted by Mr. 
  Murphy.........................................................    97
Article of August 15, 2015, ``Russia could be let off the hook 
  BEFORE end of investigation by British drug-buster and WADA 
  president Sir Craig Reedie,'' by Nick Harris, The Mail on 
  Sunday, submitted by Mr. Murphy................................    98
Article of August 23, 2015, ``WADA president Sir Craig Reedie's 
  `comfort' email to Russia's most senior drug-buster reveals 
  toothless clampdown on doping,'' by Nick Harris, The Mail on 
  Sunday, submitted by Mr. Murphy................................   103
Article of July 31, 2016, ``Russia doping scandal: `When it 
  mattered most, the IOC failed to lead,''' by National Anti-
  Doping Organizations, The Guardian, submitted by Mr. Murphy....   108
Article of August 4, 2016, ``On Eve of Olympics, Top Investigator 
  Details Secret Efforts to Undermine Russian Doping Probe'' by 
  David Epstein, ProPublica, submitted by Mr. Murphy.............   111
Article of October 2, 2016, ``UKAD to control Russia tests,'' by 
  PA Sport, Sky Sports, submitted by Mr. Murphy..................   122
International Convention against Doping in Sport 2005, adopted 
  October 19, 2005, United Nations Educational, Scientific and 
  Cultural Organization, submitted by Mr. Murphy.................   125
Financial Statements from ``IOC Annual Report 2015: Credibility, 
  Sustainability and Youth,'' International Olympic Committee, 
  submitted by Mr. Murphy........................................   137
Report of the World Anti-Doping Agency, ``Report of the 
  Independent Observers: Games of the XXXI Olympiad, Rio de 
  Janeiro 2016,''\1\ submitted by Mr. Murphy
Report of the International Olympic Committee, ``IOC reanalysis 
  programme: Beijing 2008 and London 2012,'' submitted by Mr. 
  Murphy.........................................................   157
Report of the World Anti-Doping Agency, ``Contributions to WADA's 
  Budget 2017,'' February 8, 2017, submitted by Mr. Murphy.......   165
List, World Anti-Doping Agency Foundation Board Members, 
  submitted by Mr. Murphy........................................   170
Statement of the U.S. Anti-Doping Agency, ``Conflict of Interest 
  Policy,'' submitted by Mr. Murphy..............................   175
Article of July 11, 2013, ``Olympics: Tokyo pledges `model' drug-
  free Games,'' The Straits Times, submitted by Mr. Murphy.......   177

----------
\1\ The information has been retained in committee files and also 
  is available at  http://docs.house.gov/meetings/IF/IF02/
  20170228/105613/HHRG-115-IF02-20170228-SD017.pdf.

 
  WAYS TO IMPROVE AND STRENGTHEN THE INTERNATIONAL ANTI-DOPING SYSTEM

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2017

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:16 a.m., in 
room 2123, Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, Griffith, Burgess, 
Brooks, Collins, Walberg, Walters, Costello, Carter, Walden (ex 
officio), DeGette, Schakowsky, Castor, Tonko, Clarke, Ruiz, 
Peters, and Pallone (ex officio).
    Staff present: Jennifer Barblan, Chief Counsel, Oversight 
and Investigations; Ray Baum, Staff Director; Mike Bloomquist, 
Deputy Staff Director; Elena Brennan, Legislative Clerk, 
Oversight and Investigations; Karen Christian, General Counsel; 
Jordan Davis, Director of Policy and External Affairs; Paige 
Decker, Executive Assistant and Committee Clerk; Blair Ellis, 
Press Secretary/Digital Coordinator; Adam Fromm, Director of 
Outreach and Coalitions; Brittany Havens, Professional Staff 
Member, Oversight and Investigations; Zach Hunter, 
Communications Director; Alex Miller, Video Production Aide and 
Press Assistant; John Ohly, Professional Staff Member, 
Oversight and Investigations; Dan Schneider, Press Secretary; 
Jennifer Sherman, Press Secretary; Hamlin Wade, Special Advisor 
for External Affairs; Luke Wallwork, Staff Assistant; Jeff 
Carroll, Minority Staff Director; Waverly Gordon, Minority 
Counsel, Health; Tiffany Guarascio, Minority Deputy Staff 
Director and Chief Health Advisor; Rick Kessler, Minority 
Senior Advisor and Staff Director, Energy and Environment; 
Christopher Knauer, Minority Oversight Staff Director; Una Lee, 
Minority Chief Oversight Counsel; Miles Lichtman, Minority 
Staff Assistant; Dan Miller, Minority Staff Assistant; Jon 
Monger, Minority Counsel; Dino Papanastasiou, Minority GAO 
Detailee; Tim Robinson, Minority Chief Counsel; Matt 
Schumacher, Minority Press Assistant; Andrew Souvall, Minority 
Director of Communications, Member Services, and Outreach; and 
C.J. Young, Minority Press Secretary.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning and welcome to this hearing of the 
Oversight and Investigations Subcommittee on ``Ways to Improve 
and Strengthen the International Anti-Doping System.''
    The subcommittee convenes to examine the current state of 
this system, the challenges it faces and areas for reform.
    On the heels of the Summer Games in Rio and less than a 
year away from the Winter Games in Pyeongchang, there is no 
better time to evaluate progress made thus far in reforming the 
international anti-doping system. How fitting that we are 
holding this hearing on February the 28th, as we have the 
greatest Olympic athlete of all time, who has won 28 medals, 
before us today. And I wasn't referring to you, Mr. Griffith, I 
was referring to Michael Phelps.
    Every 2 years, nations are filled with excitement and pride 
as they cheer on their athletes of the Summer and Winter Games. 
It has been a longstanding tradition that should not be 
tarnished by those that choose to cheat. Ultimately, I hope 
that this hearing helps to highlight ways in which we can 
strengthen clean competition and restore public confidence in 
international sports.
    Within the anti-doping community there are concerns 
regarding organizational structure and how the current system 
creates an environment where individuals are both policing and 
promoting sport. Conflicts of interest stemming from the 
composition of the World Anti-Doping Agency's, or WADA, senior 
leadership currently exists as anti-doping decision makers 
often simultaneously hold a policymaking position within a 
sports organization. Such conflicts can have both real and 
perceived effects on the rigorous investigations of possible 
violations as well as the enforcement of anti-doping measures.
    Several anti-doping experts have publicly stated that WADA 
lacks sufficient independence from sports itself. Recent 
proposals have suggested removing sports organizations from 
governance structures to improve independence and operations. 
Today we want to evaluate those concerns and discuss the 
proposed reforms. Further, there needs to be an established 
decision making process and body when it comes to 
investigations and sanctions.
    As we saw leading up to the Summer Games in Rio, the buck 
was passed multiple times between the International Olympic 
Committee, the national anti-doping organizations, and 
international sports federations as to who was in charge of 
making the decisions and whether or not athletes would be able 
to participate in the Summer Games.
    Sanctions and bans on athletes, coaches, NADOs, and anti-
doping laboratories vary from short term to lifetime, but there 
does not appear to be a clear set of guidelines to aid the 
appropriate organization in setting and imposing consistent 
penalties. We need to ensure that the system is fair, and that 
the punishment is appropriate, particularly when the athlete 
knowingly cheated. The general public depends on the governing 
bodies of international sports to ensure that cheating does not 
become the accepted norm, and this is a particularly important 
message for our youth.
    Additionally, recent events highlight the need to examine 
potential improvements with respect to utilizing athletes as 
partners in the anti-doping effort as well as whistleblower 
protections. There will always be athletes and institutions 
that dope in an attempt to gain an unfair competitive 
advantage.
    Athletes and whistleblowers are oftentimes the first to see 
the problems at the ground level and are critical to anti-
doping organizations' ability to identify and investigate 
violations. Therefore, it bears questioning whether the current 
system does enough to encourage, embrace, and protect those 
fighting for clean sport.
    While many summits, conferences, and meetings have occurred 
since the Rio Games, challenges remain and progress towards 
meaningful reform remains unclear. This hearing provides an 
opportunity to learn from past mistakes and examine 
opportunities to move forward in a way that will improve the 
international anti-doping system so that it is effective, fair, 
and nimble for the sake of athletes, clean sport, and integrity 
of the international competition, including the Olympic Games.
    Finally, some may ask why Congress is doing a hearing on 
sports rules and is it because it is a matter of the 
multibillion-dollar sports economy? Maybe. In part it may be 
that. But for the most part, I believe that it is very 
important that we send the right message to the youth and 
future athletes of the world that cheating is not acceptable on 
any level, whether it is in our economy, it is in trade, or it 
is in sports.
    We welcome our all-star panel of witnesses today. Your 
appearance before this subcommittee is vital for us to have an 
honest discussion with key decision makers. We are also excited 
to have Mr. Phelps and Mr. Nelson with us today to share the 
athletes' perspective. These gentlemen have competed at the 
highest level and have invaluable insights into the problems 
and challenges that face the current system as well as a unique 
perspective on improvements that can be made.
    I would like to thank our witnesses for appearing today and 
look forward to an informative discussion.
    [The statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    The subcommittee convenes this hearing today to examine the 
current state of the international anti-doping system, the 
challenges it faces, and areas for reform. On the heels of the 
Summer Games in Rio, and less than a year away from the Winter 
Games in PyeongChang, there is no better time to evaluate 
progress made thus far in reforming the international anti-
doping system. How fitting that we are holding this hearing on 
February 28, as we have the greatest Olympic athlete of all 
time, who has won 28 medals, before us today.
    Every 2 years, nations are filled with excitement and pride 
as they cheer on their athletes at the Summer and Winter Games. 
It has been a long-standing tradition that should not be 
tarnished by those that choose to cheat. Ultimately, I hope 
that this hearing helps to highlight ways in which we can 
strengthen clean competition and restore public confidence in 
international sports.
    Within the anti-doping community, there are concerns 
regarding organizational structure and how the current system 
creates an environment where individuals are both policing and 
promoting sport. Conflicts of interest stemming from the 
composition of the World Anti-Doping Agency's (WADA) senior 
leadership currently exist, as anti-doping decision makers 
often simultaneously hold a policymaking position within a 
sports organization. Such conflicts can have both real and 
perceived effects on the rigorous investigations of possible 
violations as well as the enforcement of anti-doping measures.
    Several anti-doping experts have publicly stated that WADA 
lacks sufficient independence from sports itself. Recent 
proposals have suggested removing sports organizations from 
governance structures to improve independence and operations. 
Today, we want to evaluate these concerns and discuss the 
proposed reforms.
    Further, there needs to be an established decision-making 
process and body when it comes to investigations and sanctions. 
As we saw leading up to the Summer Games in Rio, the buck was 
passed multiple times between the International Olympic 
Committee (IOC), the National Anti-Doping Organizations (NADO), 
and International Sports Federations (IF), as to who was in 
charge of making the decision as to whether or not athletes 
would be allowed to participate in the Summer Games.
    Sanctions and bans on athletes, coaches, NADOs, and anti-
doping laboratories vary from short-term to lifetime, but there 
does not appear to be a clear set of guidelines to aid the 
appropriate organization in setting and imposing consistent 
penalties. We need to ensure that the system is fair and that 
the punishment is appropriate, particularly when the athlete 
knowingly cheated. The general public depends on the governing 
bodies of international sports to ensure that cheating does not 
become the accepted norm--this is a particularly important 
message for our youth.
    Additionally, recent events highlight the need to examine 
potential improvements with respect to utilizing athletes as 
partners in the anti-doping effort as well as whistleblower 
protections. There will always be athletes or institutions that 
dope in an attempt to gain a competitive advantage. Athletes 
and whistleblowers are often times the first to see the 
problems at the ground level and are critical to anti-doping 
organizations' ability to identify and investigate violations. 
Therefore, it bears questioning whether the current system does 
enough to encourage, embrace, and protect those fighting for 
clean sport.
    While many summits, conferences, and meetings have occurred 
since the Rio Games, challenges, including but not limited to 
the ones I previously mentioned, remain and progress towards 
meaningful reform remains unclear. This hearing provides an 
opportunity to learn from past mistakes and examine 
opportunities to move forward in a way that will improve the 
international anti-doping system so that it is effective, fair, 
and nimble for the sake of athletes, clean sport, and the 
integrity of the international competition, including the 
Olympic Games.
    We welcome our all-star panel of witnesses today. Your 
appearance before the subcommittee is vital for us to have an 
honest discussion with key decision makers. We are also excited 
to have Mr. Phelps and Mr. Nelson with us today to share the 
athlete's perspective. These gentlemen have competed at the 
highest level and have invaluable insight into the problems and 
challenges that face the current system as well as a unique 
perspective on improvements that can be made. I would like to 
thank our witnesses for appearing today, and look forward to an 
informative discussion.

    Mr. Murphy. With that, I now yield 5 minutes to Ms. DeGette 
of Colorado.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman. Another 
doping scandal has now shaken the sporting world. This time it 
involves a wide-ranging Russian scheme to circumvent doping 
controls relied on by the global sports community to ensure 
clean sport. After unfortunate delays in investigating serious 
claims made by courageous whistleblowers, the World Anti-Doping 
Agency, or WADA, eventually launched investigations into 
allegations that Russia was systematically involved in doping.
    In July and December of last year, Professor Richard 
McLaren, the person commissioned by WADA as the independent 
expert tasked with looking into these allegations, released his 
findings. What WADA's independent investigations reported was a 
systematic effort by Russia to help its athletes both dope and 
circumvent doping controls.
    The doping was widespread according to WADA's report, 
implicating the London Olympic Games, the Sochi Olympic Games, 
the IAAF World Championships, and many other international 
events. Frankly, we will probably never know the full extent of 
the cheating and who benefited. As many as 1,000 Russian 
athletes across at least 30 sports might have benefited from 
this effort according to WADA's investigation.
    WADA's inquiry also found that the very agencies created to 
police sport from doping, including the Russian National Anti-
Doping Agency, were itself helping to cheat. Even Russia's 
Federal Security Service, or FSB, played a role. Russia's 
behavior raises troubling questions about how the global sports 
community should sanction doping violators and whether they are 
actually committed to that fact. For example, because WADA's 
investigative findings were made weeks before the start of Rio 
Games, confusion surfaced about whether Russia should 
collectively be banned from Rio. WADA recommended to the IOC 
that it prohibit the entire Russian delegation from 
participating.
    But rather than implement that recommendation, the IOC 
punted that decision to the international sports federations 
who were not all equipped to take on that sudden task. In the 
end, what ensued was a muddled process some viewed as sending a 
very, very weak message to the cheaters. Even today, I am 
frankly not sure whose job it was to hold Russia accountable 
for the events conveyed in WADA's investigation.
    Just last month, for example, several national anti-doping 
organizations met in Dublin and petitioned that Russia be 
banned from hosting existing and future international sporting 
events until the country comes back into compliance with WADA's 
recommendations. But what, if anything, will happen to those 
recommendations? I understand that the IOC has created two 
commissions to explore the findings of WADA's independent 
investigation.
    While I support due process when it comes to athletes 
possibly implicated in the investigations, I believe there is 
enough evidence reported in WADA's investigations to warrant a 
strong message from the IOC: If you cheat, you do not play. Of 
course, WADA's findings also raised concerns about WADA itself. 
How did this cheating scheme persist for so long undetected, 
for example? Is WADA organized to catch cheating going forward? 
Does it have sufficient resources to police sport and prevent 
such a conspiracy from happening again?
    Following the Russian revelations, a number of national 
anti-doping organizations met in Copenhagen late last year and 
put forth some recommendations that could enhance WADA's 
ability to keep sports clean. These recommendations include 
addressing certain conflicts of interest within WADA and 
clarifying the Agency's authority to investigate doping and 
sanction violators. It is unclear what has happened to these 
recommendations, but I do believe that they may be a possible 
blueprint and route moving forward.
    I also believe we have to examine whether WADA has the 
resources to do the job. As I said before, WADA's entire budget 
is a mere $30 million and the U.S., which is the largest 
contributor, provides a mere $2 million. The McLaren 
investigation alone will cost $2 million, so clearly we need 
investigation into this.
    I want to welcome our witnesses, in particular our two 
athletes who are here, Mr. Nelson and Mr. Phelps. I think your 
perspective will really help us. I also think we should thank 
WADA itself, including Richard Pound and Richard McLaren for 
their work, and I especially want to commend Mr. Tygart and 
USADA for the tireless work in this investigation. It is an 
unfortunate set of events that has forced us into this room 
today, but ultimately I think this panel, this Congress, and 
the international sports community need to realize when dealing 
with Russia and its approach to ensuring clean international 
competitions the honor system is simply not going to be enough. 
And I yield back.
    Mr. Murphy. The gentlelady yields back. I now recognize the 
chairman of the full committee, Mr. Greg Walden of Oregon, for 
5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman, and I want to welcome 
all of our witnesses and our Olympians. Thank you for being 
here to help us better understand what is going on in this 
situation.
    For centuries, athletes, cultures, nations have been 
brought together by the spirit of competition. From the slopes 
of Olympus to the stands of Autzen Stadium, home of the Oregon 
Ducks, people from all walks of life have gathered to pursue 
and celebrate athletic achievement. We relish with anticipation 
the possibility of witnessing the impossible. We celebrate the 
thrill of victory and agonize in defeat.
    Whether through your own pursuits or those of others, I 
suspect everyone in this room knows the emotion, collective 
experience, and beauty of sport. Nothing embodies the spirit 
and potential of sport more than the Olympic Games. It is the 
hallmark of international competition, uniting people from 
around the world regardless of social, political, or religious 
differences in celebration of our greatest athletes. It evokes 
national pride to the highest degree. It evokes a noble vision 
of sport rooted in participation over individual achievement.
    There is a lot of truth to that message, but we also cannot 
be blind to reality. Athletes and nations compete to win. They 
do not invest countless hours training to lose. They sacrifice 
for success and their victories are rewarded. This is why for 
centuries athletes have sought performance-enhancing substances 
to gain an advantage on the competition. In fact, Greek 
Olympians and Roman gladiators used herbs and wine and other 
products to get an edge on their opponents.
    In the early 1900s, mixtures of heroin, cocaine, and other 
substances became prevalent among athletes. Over time, 
especially following the introduction of anti-doping testing at 
the Olympics in the 1970s, the drugs have become more 
sophisticated and the cheaters more creative. Despite 
improvements in global anti-doping efforts at the turn of the 
century with the establishment of the World Anti-Doping Agency, 
WADA, the fight for clean sport remains an uphill battle. The 
temptation to cheat will always be present to those looking for 
a shortcut.
    Recent events, however, revealed a far more startling and a 
difficult challenge. Thanks to the courage and tenacity of 
whistleblowers, of journalists, and others, we were exposed to 
a level of deception and cheating that felt more like a movie 
script than reality of international sport. It was not a case 
of individual athletes looking for an edge, this was a tale of 
nation-state-sponsored doping.
    Hundreds of athletes, knowingly or unknowingly, became part 
of a widespread campaign to enhance performance, alter test 
results, and evade detection by international anti-doping 
authorities. Despite these shocking allegations later bolstered 
by a series of independent commissions and reports, the 
response from the respective governing bodies of international 
sport has become a hodge-podge of indecisive and inconsistent 
actions.
    So what went wrong? It is one thing for an individual to 
beat the system, but how could such a massive program go 
undetected for so long and what has the response been? It has 
been a quagmire. Clearly, these events point to larger 
challenges in international anti-doping efforts. That is why we 
are here today, to learn from the past in pursuit of a better 
future for clean sport.
    There will always be those who seek to gain an advantage--
the personal financial motivations are undeniable, the 
opportunities afforded by scientific innovation too tempting. 
The challenge is daunting and may never be totally solved, but 
that is not an excuse for inaction. We can and must do better, 
even if that requires some difficult and frankly some 
uncomfortable reforms. Success in sport is not achieved sitting 
on the sideline waiting for others to act. It requires 
leadership, teamwork, and most of all it requires dedication as 
our athletes have clearly shown.
    The millions of clean athletes around the world who push 
the limits of physical and mental exhaustion, who sacrifice so 
much, don't they deserve a similar commitment from those 
responsible for protecting the integrity of their sport? I 
believe they do. That is why we are here today, to hear from 
all of you.
    Thank you. And Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    For centuries, athletes, cultures, and nations have been 
brought together by the spirit of competition. From the slopes 
of Olympus to the stands of Autzen Stadium-home of the Oregon 
Ducks-people from all walks of life have gathered to pursue and 
celebrate athletic achievement. We relish the anticipation, the 
possibility of witnessing the impossible. We celebrate the 
thrill of victory and agonize in defeat. Whether through your 
own pursuits or those of others, I suspect everyone in this 
room knows the emotion, collective experience, and beauty of 
sport.
    Nothing embodies the spirit and potential of sport more 
than the Olympic Games. It is the hallmark of international 
competition, uniting people from around the world-regardless of 
social, political or religious differences-in celebration of 
our greatest athletes. It envelops national pride to the 
highest degree. It evokes a noble vision of sport rooted in 
participation over individual achievement.
    There is a lot of truth to that message but we also cannot 
be blind to reality. Athletes and nations compete to win. They 
do not invest countless hours training to lose. They sacrifice 
for success and their victories are rewarded.
    This is why, for centuries, athletes have sought 
performance enhancing substances - to gain an advantage on the 
competition. Greek Olympians and Roman Gladiators used herbs, 
wine, and other products to get an edge on their opponents. In 
the early 1900s, mixtures of heroin, cocaine and other 
substances became prevalent among athletes. Over time, 
especially following the introduction of anti-doping testing at 
the Olympics in the 1970s, the drugs have become more 
sophisticated and the cheaters more creative. Despite 
improvements in global anti-doping efforts at the turn of the 
century with the establishment of the World Anti-Doping Agency 
(WADA), the fight for clean sport remains an uphill battle. The 
temptation to cheat will always be present to those looking for 
a short-cut.
    Recent events, however, revealed a far more startling and 
difficult challenge. Thanks to the courage and tenacity of 
whistleblowers, journalists, and others, we were exposed to a 
level of deception and cheating that felt more like a movie 
script than the reality of international sport. It was not a 
case of individual athletes looking for an edge. This was a 
tale of nation-state-sponsored doping. Hundreds of athletes--
knowingly or unknowingly--became part of a widespread campaign 
to enhance performance, alter test results, and evade detection 
by international antidoping authorities.
    Despite these shocking allegations-later bolstered by a 
series of independent commissions and reports-the response from 
the respective governing bodies of international sport has 
become a hodge-podge of indecisive and inconsistent actions.
    So what went wrong? It is one thing for an individual to 
beat the system but how could such a massive program go 
undetected for so long? And what has the response been such a 
quagmire? Clearly, these events point to larger challenges in 
international anti-doping efforts.
    That is why we are here today--to learn from the past in 
pursuit of a better future for clean sport. There will always 
be those who seek to gain an advantage- the personal and 
financial motivations are undeniable and the opportunities 
afforded by scientific innovation too tempting. The challenge 
is daunting and may never be totally solved. But that is not an 
excuse for inaction. We can and must do better, even if that 
requires some difficult and uncomfortable reforms.
    Success in sport is not achieved sitting on the sideline, 
waiting for others to act. It requires leadership, teamwork and 
most of all dedication. The millions of clean athletes around 
the world, those who push the limits of physical and mental 
exhaustion, who sacrifice so much, deserve a similar commitment 
from those responsible for protecting the integrity of their 
sport.

    Mr. Murphy. The gentleman yields back. I now recognize the 
ranking member of the full committee, Frank Pallone of New 
Jersey, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I want to begin by 
thanking our witnesses today for their ongoing commitment to 
the integrity of competitive sports, and I especially want to 
thank our Olympic athletes who have faced circumstances outside 
of their control when it comes to doping within their 
individual sport. And I would like to single out Travis Tygart 
and the United States Anti-Doping Agency who have aggressively 
fought for those athletes demanding drug-free competition.
    In July of last year, several of us on the committee sent a 
letter to the president of the International Olympic Committee 
expressing our strong interest in supporting efforts to ensure 
the integrity of sports. When we wrote that letter, the World 
Anti-Doping Agency, or WADA, had begun releasing initial 
findings from its independent investigation into whether Russia 
had engaged in institutionalized doping.
    WADA's investigation read like a Cold War novel. Tainted 
urine samples had secretly passed through a wall and were 
swapped for clean samples. Agencies responsible for policing 
sport had actually helped athletes dope. Even the Russian 
Federal Security Service, or FSB, had played a role in this 
conspiracy according to WADA's investigation.
    Upon the release of those findings, WADA recommended to the 
International Olympic Committee that it ban Russia and Russian 
athletes from participation in the 2016 Rio Games. However, the 
IOC delegated that decision to the international sports 
federations, organizations that may or may not have had the 
independence and resources to undertake such a task, and some 
critics believe the IOC's lack of decisiveness affected the 
role and perceived authority of anti-doping agencies.
    So even today it remains unclear that what sanctions the 
IOC and other sports related organizations can or will take in 
response to WADA's independent investigation. Collectively, 
these organizations must take decisive action. They must send 
an unambiguous message that they will punish doping and that 
cheaters will no longer be rewarded for creating an unfair 
advantage over clean athletes.
    I think we are at a crossroads now, Mr. Chairman, at how 
best to prevent and police doping in sport. WADA's independent 
investigation raises serious concerns about the agencies 
responsible for policing doping, including their ability to 
sanction athletes, institutions, and even countries that 
conspire to violate the world anti-doping code.
    Despite these challenges, there are some hopeful signs of 
reforming the anti-doping regulatory system. In particular, I 
am encouraged by the recommendation made by a group of national 
anti-doping agencies, or NADOs, that will strengthen WADA's 
role as a global regulator in the doping fight. The group wants 
to ensure that WADA has the authority to investigate suspected 
doping violations. They also want to provide WADA additional 
resources so it can develop better anti-doping monitoring 
systems.
    The group of agencies also recommended removing conflicts 
of interest in WADA's governing structure and developing a 
program to protect whistleblowers who may wish to bring doping 
violations forward. And we all care about the international 
sport community, but the integrity of the international 
community will continue to be questioned until an effective 
anti-doping system is in place.
    So again I want to thank our witnesses for attending this 
hearing so we can identify what actions are needed moving 
forward to build a better anti-doping system, finding the 
underlying cause of what happened, and then making real changes 
to our anti-doping institutions based on those findings is 
something we must do for the athletes and the integrity of 
international sport.
    I thank you, Mr. Chairman, and yield back the balance of my 
time.
    [The statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, I want to begin by thanking our witnesses 
today for their ongoing commitment to the integrity of 
competitive sports. I especially want to thank our Olympic 
athletes, who have faced circumstances outside of their control 
when it comes to doping within their individual sport. I would 
like to single out Travis Tygart and the United States Anti-
Doping Agency who has aggressively fought for those athletes 
demanding drug-free competition.
    In July of last year, several of us on the committee sent a 
letter to the President of the International Olympic Committee 
expressing our strong interest in supporting efforts to ensure 
the integrity of sport. When we wrote that letter, the World 
Anti-doping Agency (WADA) had begun releasing initial findings 
from its independent investigation into whether Russia had 
engaged in institutionalized doping.
    WADA's investigation read like a cold war novel. Tainted 
urine samples had secretly passed through a wall and were 
swapped for clean samples. Agencies responsible for policing 
sport had actually helped athletes dope. Even the Russian 
Federal Security Service, or FSB, had played a role in this 
conspiracy according to WADA's investigation.
    Upon the release of those findings, WADA recommended to the 
International Olympic Committee (IOC) that it ban Russia and 
Russian athletes from participation in the 2016 Rio Games.
    However, the IOC delegated that decision to the 
international sports federations, organizations that may or may 
not have had the independence and resources to undertake such a 
task. Some critics believed the IOC's lack of decisiveness 
affected the role and perceived authority of anti-doping 
agencies.
    Even today, it remains unclear what sanctions the IOC and 
other sports-related organizations can or will take in response 
to WADA's independent investigation. Collectively, these 
organizations must take decisive action. They must send an 
unambiguous message that they will punish doping and that 
cheaters will no longer be rewarded for creating an unfair 
advantage over clean athletes.
    We are at a crossroads now at how best to prevent and 
police doping in sport. WADA's independent investigation raises 
serious concerns about the agencies responsible for policing 
doping including their ability to sanction athletes, 
institutions, and even countries that conspire to violate the 
world anti-doping code.
    Despite these challenges, there are some hopeful signs of 
reforming the anti-doping regulatory system. In particular, I 
am encouraged by the recommendations made by a group of 
National Anti-Doping Agencies (NADOs) that could strengthen 
WADA's role as a global regulator in the doping fight. The 
group wants to ensure that WADA has the authority to 
investigate suspected doping violations. They also want to 
provide WADA additional resources so it can develop better 
anti-doping monitoring systems. The group of agencies also 
recommended removing conflicts of interest in WADA's governance 
structure and developing a program to protect whistleblowers 
who may wish to bring doping violations forward.
    We all care about the international sport community, but 
the integrity of the international community will continue to 
be questioned until an effective anti-doping system is in 
place.
    I want to thank our witnesses here today for attending this 
hearing so that we can identify what actions are needed moving 
forward to build a better anti-doping system. Finding the 
underlying cause of what happened and then making real changes 
to our anti-doping institutions based on those findings is 
something we must do for the athletes and the integrity of 
international sport.
    Thank you, and I yield back.

    Mr. Murphy. The gentleman yields back. I ask unanimous 
consent that the Members' written opening statements be 
introduced into the record, and without objection, the dockets 
will be entered into the record.
    I would now like to introduce our all-star panel of 
witnesses for today's hearing. First, we welcome Mr. Adam 
Nelson, American shot putter and Olympic gold medalist. Three-
time Olympian and six-time world championship team member, Mr. 
Nelson is currently the president of the Track and Field 
Athletes Association.
    As many of us know, Mr. Nelson was never properly awarded 
his medal for his Olympic achievements. I would like to take a 
moment right now to congratulate Mr. Nelson on his Olympic gold 
medal and commend him for pursuing his achievements in the 
spirit of clean and fair sport. It is a shame it had to happen 
at a food court at an airport.
    [Applause.]
    Mr. Murphy. Next, we are honored to have with us today Mr. 
Michael Phelps. Mr. Phelps is the most decorated Olympian of 
all time, winning a total of 28 medals including 23 gold medals 
over the course of five Olympic games. Both during and after 
his Olympic career, Mr. Phelps has been a strong and outspoken 
advocate for clean sport.
    Next, we want to welcome Mr. Travis Tygart who serves as 
the chief executive officer for the United States Anti-Doping 
Agency. With 15 years of experience working at USADA in various 
leadership roles, Mr. Tygart works closely with the USADA board 
of directors to carry out the organization's mission of 
preserving the integrity of competition, inspiring true sport, 
and protecting the rights of U.S. athletes.
    Now we also welcome Rob Koehler, Deputy Director General of 
the World Anti-Doping Agency. Mr. Koehler comes to us with 
almost two decades of experience working in the anti-doping 
field at WADA and the Canadian Center for Ethics in Sports. In 
his role as Deputy Director General at WADA, Mr. Koehler is 
responsible for the oversight of all U.S. national anti-doping 
organizations as well as global anti-doping education 
initiatives.
    And lastly, we welcome Dr. Richard Budgett, medical and 
scientific director for the International Olympic Committee. In 
this capacity, Dr. Budgett is responsible for ensuring that the 
organizing committees of each edition of the Olympic Games 
delivers excellent medical and doping control services, working 
closely with the World Anti-Doping Agency.
    So thank you to all our witnesses for being here today and 
partaking in what we are hoping will be a very informative and 
insightful discussion on this important international issue.
    You are all aware that this committee is holding an 
investigative hearing and when doing so has had the practice of 
taking testimony under oath. Do any of you object to giving 
testimony under oath? Seeing no objections, the Chair then 
advises you that under the rules of the House and rules of the 
committee you are entitled to be advised by counsel. Do any of 
you desire to be advised by counsel during your testimony 
today? And seeing none, in that case will you all please rise, 
raise your right hand, and I will swear you in.
    [Witnesses sworn.]
    Mr. Murphy. Thank you. All our witnesses have answered in 
the affirmative and so you are now under oath and subject to 
the penalties set forth in Title 18 Section 1001 of the United 
States Code. I call upon you each to give a 5-minute statement. 
This timer is not like in the games, Mr. Nelson, so nothing bad 
is going to happen if it turns red on you, but we ask you to do 
5 minutes only.
    Mr. Nelson.

  STATEMENTS OF ADAM NELSON, AMERICAN SHOT PUTTER AND OLYMPIC 
  GOLD MEDALIST; MICHAEL PHELPS, AMERICAN SWIMMER AND OLYMPIC 
   GOLD MEDALIST; TRAVIS T. TYGART, CHIEF EXECUTIVE OFFICER, 
UNITED STATES ANTI-DOPING AGENCY; ROB KOEHLER, DEPUTY DIRECTOR 
 GENERAL, WORLD ANTI-DOPING AGENCY; AND RICHARD BUDGETT, M.D., 
    MEDICAL AND SCIENTIFIC DIRECTOR, INTERNATIONAL OLYMPIC 
                           COMMITTEE

                    STATEMENT OF ADAM NELSON

    Mr. Nelson. Good morning and thank you, Mr. Chairman and 
the members of this committee, for hosting this event and 
hopefully supporting clean sport. As a 9-year-old, I remember 
watching athletes like Mary Lou Retton and Edwin Moses 
represent the United States of America in the 1984 Olympic 
Games. Their performances inspired a generation of childhood 
dreamers like me, at least for a moment, to imagine what it 
would be like to compete at the greatest stage in the world 
culminating in an unforgettable medal ceremony accompanied by 
my flag and my national anthem.
    Twelve years later, I competed in my first Olympic trials 
as a shotputter, finishing last in an effort that fueled the 
dream for 4 more years. ``Four more years'' has been a mantra 
for most of my adult life. The 2004 Olympic shotput competition 
was contested in the ancient Olympic Stadium in Olympia, 
Greece. More than 20,000 spectators visited the competition 
venue for the first time in nearly 3,000 years. For 58 of 60 
throws, I led that competition. On the 59th throw, the athlete 
from the Ukraine tied my best mark. As the leader going into 
the final rounds, I had the privilege to take the last and 
final throw of the competition.
    As a child, my imagination could have never dreamed of a 
moment quite like this, but these are the moments that make the 
Olympics great and I can remember everything about that moment. 
I remember the faces in the crowd, I remember the heat, the sun 
baking my skin, and I remember the mixture of cheers and boos 
for one American athlete as he was competing for the gold 
medal. These are the moments that change the trajectory of your 
life and make the struggle worthwhile.
    When I stepped into the ring for the last and final throw 
of the competition, the world went quiet. I felt the coolness 
of the shotput touch my neck, and then I felt a surge of 
adrenalin and watched as the shotput sailed farther and farther 
than any other throw of the day. I raised my hands and sure of 
victory, realizing that I had just won the Olympic gold medal, 
only to look left and see the red flag raised, indicating that 
I'd fouled. Then I saw as another athlete started his victory 
lap and listened as they played another national anthem and 
raised another flag, celebrating him and in his honor.
    For 8 years I lived with that result. Eight years later, I 
received a phone call from a reporter informing me that five 
athletes had tested positive in a retroactive drug testing from 
samples from 2004. The last 8 years of my life had apparently 
been based on a falsehood. A month later, the same reporter 
called me to inform me that the IOC was meeting that day to 
discuss whether or not to vacate his position or reallocate 
those medals.
    While on that call, the news hit the wires and the reporter 
informed me that I was now the Olympic gold medalist. A year 
later, I picked up my medal in the food court at the Atlanta 
airport. It came with a side of fries and a free toy, don't 
worry about it. Look, it was an afterthought assigned to a USOC 
official who could swing through Atlanta on his way home 9 
years after the moment had passed.
    The color and timing of a medal matter, folks. Silver does 
not hold the same value, and gold loses its shine over time. 
There's no small bit of irony in me winning a medal in this 
fashion. As an athlete, I rejected the notion that you needed 
drugs to compete. I was vocal in my opinions about clean sport 
and often criticized by competitors or peers for my position. I 
was often told not to comment on the current state of anti-
doping or doping in sport at major events for fear that it 
would be a distraction.
    See, doping in sports is seen by some as a distraction for 
the athletes and an obstacle for the business of sport. It's a 
stain on an otherwise beautiful set of ideals that we know as 
the spirit of Olympism. As a result, we have a system that's 
interested in seeing progress but not truly committed to 
achieving the outcome.
    My story illustrates only part of the damage caused by 
doping in sport, but I'm not here to invoke sympathy. Sympathy 
is a thought, an emotion devoid of action. I'm here today to 
ask you all to give meaning to my medal, this medal right here. 
I'm here today to ask for action on behalf of millions of 
dreamers like me who believe in fair play and aspire for gold 
medals to be won and celebrated in the moment after a clean and 
fair competition.
    Since 2012, I've become a student of international sports 
organizations. I've advocated for clean sports, I've spoken 
with athletes from around the world about this subject. I've 
heard their voices, the voices of the clean athletes. They ask 
for more, but those voices continue to fall on deaf ears, so 
they resort to social media. They wag fingers and they create a 
petition that has already garnered almost 500 athlete 
signatures in support of structural reform.
    Athletes want action, not words. Structural reform is only 
part of the solution. You cannot change a culture strictly by 
changing policy. You have to engage the athletes. So I ask as 
an athlete, an Olympic gold medalist, and as someone personally 
and financially impacted by doping in sport that you consider 
clean athletes as a shared owner in this all-important fight. 
We will stand with you as a partner if you empower us to do so. 
The time and the moment is now. Thank you very much for your 
time.
    [Applause.]
    [The prepared statement of Mr. Nelson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you.
    Mr. Phelps, you are recognized for 5 minutes.

                  STATEMENT OF MICHAEL PHELPS

    Mr. Phelps. Mr. Chairman, members of the committee, good 
morning. My name is Michael Phelps. I'm a retired professional 
swimmer and an Olympian. I want to thank the committee for the 
opportunity to appear here before you today. It's a privilege 
to be here to share my thoughts and perspective on the issue of 
clean sport, which is important to so many athletes and to 
sport in general.
    I competed internationally for over 15 years and had the 
tremendous honor to represent the United States in five Olympic 
Games and six world championships. Without question, many of my 
proudest moments have been representing my country in 
international competition. There's no greater feeling than 
standing on top of the podium watching the Stars and Stripes 
rise as the national anthem plays.
    The Rio Olympics were special for me because it gave me the 
opportunity to end my career on my terms and to do it with my 
wife Nicole and son Boomer watching. Rio was also unique 
because of increased doping concerns. I watched how this 
affected my teammates and fellow competitors. We all felt 
frustration. Looking back over my career and knowing how 
difficult it is to get to the highest levels of sport, I can't 
help but wonder how the next generation of athletes will be 
able to do it if this uncertainty continues.
    As a child I found school difficult. I had ADHD, which 
probably contributed to my restlessness. I'll never forget 
being told by one of my teachers that I'd never amount to 
anything. It was swimming that enabled me to see past those 
challenges and not be defined by them. My mom put my sisters 
and me in the pool so we'd be water safe. At first, like many 
children, I was afraid to put my head under the water, but by 
overcoming that fear I got my first taste of self-confidence.
    As it turned out, I was pretty good in the water and I 
quickly realized the harder I worked the quicker I improved. I 
found a focus and a purpose I had never felt before. I would 
set goals for myself and work like crazy until I accomplished 
them. Dreams would just pop into my head whenever I got into 
the pool. I dreamed about becoming a gold medalist, a world 
record holder. I wanted to be the best. I talked with my coach 
so we could come up with a plan, not just for what I was doing 
in the pool but also how I could better myself away from the 
pool.
    I made my mind to do everything I could to make my dream a 
reality. In school I had friends but I wasn't that social. I 
focused on swimming. At times I was made fun of for what I was 
doing because it was different. I was in love with challenging 
myself to become the best athlete that I could be. I felt that 
every single day was an opportunity for me to do something 
special when I went to the pool. I always felt that the kids 
who worked the hardest got the best results, that's why I 
pushed myself as hard as I could.
    Over a 5-year period I trained every single day without a 
day off. I figured by training on holidays I'd be able to get 
that extra edge. As my hard work and sacrifice began to pay 
off, my confidence grew and I began to feel that if I could 
dream something and gave everything I had that anything was 
possible. The strength of that belief drove me to set goals 
that others might have thought were unrealistic.
    That's one amazing thing about competitive sport, it 
demands that you believe in yourself. This isn't always easy. 
There were so many times I could have quit and walked away. 
Sticking with it required me to dig deep, especially knowing 
that after all the work and sacrifice success might be 
determined by just a hundredth of a second. In those critical 
moments that you really test your commitment and that can 
ultimately define your career, you need to believe that if you 
push on you'll get the opportunity to measure yourself, your 
preparation, your desire, your talent against others who have 
prepared themselves in the same exact way.
    Throughout my career I've thought that some athletes were 
cheating and in some cases those suspicions were confirmed. 
Given all the testing I and so many others have been through, I 
have a hard time understanding this. In addition to the tests 
in the competitions, I had to notify USADA as to where I was 
every day so they would be able to conduct random tests outside 
of competition.
    This whole process takes a toll, but it's absolutely worth 
it to keep the sport clean and fair. I can't describe how 
frustrating it is to see other athletes break through 
performance barriers in unrealistic time frames knowing what I 
had to do to go through that. I watched how this affected my 
teammates as well.
    Even the suspicion of doping is disillusioning for clean 
athletes. To believe in yourself through sport you need to be 
able to believe in the system that safeguards clean sport and 
fair play. All athletes must be held to the same standards, 
which need to be implemented and enforced with consistency and 
independence.
    For years now I've worked closely with kids. Most of these 
kids aren't swimmers but they're eager to sit down and talk 
with me and they're always full of questions. It's when I talk 
about being a kid like them and how this all started with a 
dream you see their eyes lighten up. We talk about how I did it 
and I tell them that they can do it too. To look into a child's 
eyes and tell them if they dare to dream and do the work they 
can succeed, the power to believe in yourself and inspire 
others through sport depends upon fair play.
    Now that I'm retired I'm frequently asked if I think 
anybody will ever win more medals than me in my lifetime. My 
answer to that question is I hope so. I'd like to think there's 
some little boy or girl out there now with an even bigger dream 
and even stronger drive to work harder than I ever did to do 
something that's never been done before. But for that to 
happen, he or she must believe they will get a fair opportunity 
to compete.
    If we allow our confidence in fair play to erode, we will 
undermine the power of sport and the goals and dreams of future 
generations. The time to act is now. We must do what is 
necessary to ensure the system is fair and reliable so we all 
can believe in it.
    Thank you, Mr. Chairman and members of the committee.
    [Applause.]
    [The prepared statement of Mr. Phelps follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. We rarely have applause after testimony, so I 
thank both of you.
    Mr. Tygart, you are recognized for 5 minutes.

                 STATEMENT OF TRAVIS T. TYGART

    Mr. Tygart. Thank you, Mr. Chairman, Ranking Member, and 
other members of the committee. I'm Travis Tygart from the U.S. 
Anti-Doping Agency, and really appreciate the invitation to be 
here today to discuss this very important topic.
    We find ourselves at a critical juncture for the soul of 
sport. Fairness and integrity in athletic competition, two 
principles at the very heart of why we play sports, hang in the 
balance. You just heard powerful testimony from Adam Nelson and 
Michael Phelps on why this matters. We view clean athletes and 
their powerful stories as our guiding light, our North Star. 
Their stories give us hope, they provide us the fuel to 
continue to advocate for their right to clean and fair 
competition.
    In order to do this today I think we must understand how 
and why the system is under threat. There's no timelier example 
than the uncovering of Russia's widespread state-supported 
doping system. Over a thousand Russian athletes from over 30 
sports have been implicated in this drug program that was 
proven to have been orchestrated by Russian officials. At least 
two Olympic Games were corrupted, and at the Rio Games this 
past August scores of Russian athletes competed despite not 
being subject to credible anti-doping programs.
    When the moment came, despite mountains of evidence and 
vocal opposition from anti-doping leaders and clean athletes 
from around the world, the IOC chose to welcome the Russian 
Olympic Committee to Rio and did not enforce any meaningful 
sanctions against the Russian Olympic Committee. The IOC missed 
or ignored a defining moment to confront in the clearest way 
possible this win-at-all-costs culture of doping in global 
sport. It was a chance to draw an unambiguous line in the sand 
to stand up for clean athletes of the world.
    Despite this, however, two silver linings have emerged. The 
first, more than ever before, as you've heard today, athletes 
are mobilizing, voicing their opinions, and fighting more than 
ever before for a level playing field. And second, we all have 
a once-in-a-lifetime opportunity to disrupt entrenched 
positions for the good of sport to make sure that the kind of 
state-supported doping is never allowed to rear its ugly head 
again.
    To get there, the road to reform starts and ends with 
independence. We have long advocated in front of this Congress 
for a clear separation between those who promote sport and 
those who police sport, because to do so otherwise is to have 
the fox guarding the henhouse. You cannot both promote and 
police your own sport.
    We, along with 22 other national anti-doping agencies that 
were referenced earlier from around the world, support a strong 
and independent WADA. But we also agree that WADA needs reform 
to become a truly independent global regulator, not merely the 
sport service organization that many hope it remains. The good 
news, Mr. Chairman, is that WADA's conflicted governance model 
could be easily solved by removing sport leaders from the WADA 
board. Let's take the blindfolds off, let's take the handcuffs 
off and let WADA do the job that clean athletes deserve.
    I read the testimony of both Richard and Rob prior to 
coming today, and let me just preface this by saying that we 
know both of them well and have great respect on a personal 
level for their efforts to fight within the system for change. 
But, unfortunately. today they are simply to some extent just 
carrying out the instructions from their sport bosses who 
aren't here, unfortunately. But in regard to their positions, 
we agree with much of it.
    In fact, that's why national anti-doping agencies, 
including us here in the U.S., have implemented many of the 
same strategies years ago, but unfortunately, their submissions 
are silent on the crux of the real reform solution, which is to 
remove the fox from guarding the henhouse. In our world we hear 
that term a lot, fox in the henhouse. You'll see quite clearly 
that while the IOC and WADA may be advocating to deputize the 
fox, to educate the fox, and even equip the fox with the 
appropriate resources to do the job, it's still the fox. There 
is still a conflict of interest, and clean athletes around the 
world are still being let down by sports control of these 
critical anti-doping functions.
    What's also so frustrating for us, and you've heard our 
athletes' frustration in the athletes that we serve, is that 
the solutions are relatively easy but the determination to 
implement them is lacking, yet we remain optimistic. National 
anti-doping agencies from around the world as it's been cited 
today have come together and put forth the Copenhagen reform 
declaration that number one, remove sports' control of anti-
doping; number two, strengthen WADA through improved 
independence and increased investment; number three, increase 
and make clear WADA's ability to investigate, monitor 
compliance, and impose sanctions; number four, provide 
meaningful athletes who have been robbed the recognition they 
deserve.
    If we were involved with Adam's situation, not a chance 
that medal gets handed to him in a food court. But sport, it's 
an obstacle. They don't want to care about it. Let it be done 
right and let's have swift reallocation of any medals that have 
been stolen. Five, increased support for whistleblowers around 
the world.
    Mr. Chairman, and those of you on the committee who value 
this clean sport, this is our moment. Importantly, this is not 
just about elite Olympic athletes, but about every child on a 
playground who has a dream and asks themselves what does it 
take to have this dream come true. The truth is, if we don't 
push, if we don't win, we will likely find ourselves right back 
in this same situation years from now, staring at another 
state-supported doping system in the face that has abused its 
own athletes, that has robbed other athletes from around the 
world, and we'll all be wondering why we didn't do more.
    Thank you, Mr. Chairman, Ranking Member, and members of the 
committee.
    [The prepared statement Mr. Tygart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Mr. Tygart.
    Mr. Koehler, you are recognized for 5 minutes.

                    STATEMENT OF ROB KOEHLER

    Mr. Koehler. Thank you, Mr. Chairman, members of the 
committee. My name is Rob Koehler, Deputy Director of the World 
Anti-Doping Agency. First of all, thank you for inviting me to 
testify today about anti-doping issues in sport, an issue that 
I and my organization are passionate about.
    The World Anti-Doping Agency was established in 1999 to 
promote, coordinate, and monitor the fight against doping in 
sport. WADA is an independent agency responsible for the 
development and implementation of the World Anti-Doping Code. 
The Code harmonizes anti-doping policies in all sports in all 
countries. WADA both oversees and works with cooperation and a 
network of stakeholders in governments and in sports movements. 
Each has its own specific roles and responsibility.
    WADA is funded by the sports movement and the governments 
of the world. We heard today that the United States is the 
largest national contributor to WADA who funds WADA on an 
annual basis at $2.15 million of our $27.5 million annual 
budget. WADA has come a long way in 18 years on very modest 
resources. The World Anti-Doping Code is in its third 
iteration. The Code has introduced consistencies to the anti-
doping rules and processes where previously there was 
disparity. One should not look past the importance of 
consistent rules and procedures, as without them anti-doping 
efforts are merely unstructured aspirations.
    WADA has also introduced a U.N. treaty called the UNESCO 
International Convention Against Doping in Sport. This treaty 
was ratified in record time by 183 states of 195. Relationships 
are also crucial to run effectively as a small organization. 
For example, we've established lasting relationships with 
INTERPOL, with the world's custom organizations, and our 
relationships with the pharmaceutical companies such as Pfizer, 
Roche, GlaxoSmithKline are also very helpful in terms of our 
research initiatives.
    While WADA has come a long way in its inception, the past 2 
years have placed the Agency in uncharted waters, the Agency 
and the broader anti-doping community. The widespread anti-
doping, or doping conspiracy in Russia as described in the 
Pound Report and subsequent McLaren Report, both funded and 
sponsored by WADA, forced a global period of reflection on how 
better to fight doping in sport. WADA has listened to a series 
of proposals made by its stakeholders in the wake of the 
Russian doping conspiracy.
    WADA's board as you know is comprised of representatives 
from the sport movement and from governments. Our board in its 
November meeting took action on a set of recommendations that 
we believe will both enhance WADA's role and capacity to help 
foster clean sport and to help protect the rights of clean 
athletes worldwide. We're moving forward in three main 
priorities.
    One, we recognize the need to enhance WADA's investigations 
and intelligence gathering capacity. This work has already 
begun with the arrival of our new chief investigative officer 
whose team will and is entirely independent from WADA's 
management. Second, WADA's new whistleblower policy--we've 
named it Speak Up--has been approved and will be launched in 
the coming days. As the last couple of years have shown, 
informants and whistleblowers are invaluable to the fight 
against doping in sport.
    Third, and perhaps the most important, is WADA's new 
compliance monitoring which will be the most thorough review of 
our stakeholders' anti-doping programs that has ever taken 
place in the anti-doping movement. It will raise the standards 
of the entire clean sport community. We recognize, however, 
that this compliance monitoring program will only be effective 
if supported by meaningful, predictable, and proportionate 
sanctions for those organizations that subvert anti-doping 
rules.
    Our Foundation Board endorsed principled, new graded 
sanction framework moving forward to ensure that people are 
made accountable for making mistakes. WADA is focused on these 
three priorities. We are all conscious that these new strategic 
undertakings will require a significant level of funding if we 
are to realize our mission to protect the clean athlete. We 
will present to our board a clean slate draft of our 2018 
budget to reflect this new level of work. Simply put, to 
increase our capacity in the broader anti-doping community 
we'll need additional funding from both sport and government to 
be more successful.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Koehler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you, Mr. Koehler.
    Dr. Budgett, you are recognized for 5 minutes.

                  STATEMENT OF RICHARD BUDGETT

    Dr. Budgett. Thank you, Mr. Chairman, and thank you, 
members of the subcommittee. My name is Richard Budgett. I'm 
the medical and scientific director of the IOC, and I'm very 
pleased to have the opportunity to present to you on behalf of 
the IOC on strengthening the international anti-doping system. 
Clearly, the cooperation between sport and government is 
extremely important. The protection of clean athletes has been 
an absolute priority for the IOC.
    Primarily, we are responsible for anti-doping at the Games, 
but our responsibility is broader than that across the whole 
Olympic family. And perhaps the most important thing the IOC 
ever did in the field of anti-doping was to found WADA in 1999. 
For the first 2 years it was totally funded by the IOC, and 
then as you've heard it became a partnership 50/50 between 
government and sport.
    And now the IOC fund WADA to the tune of 14 million a year, 
and of course the sporting community as a whole spends hundreds 
of millions of dollars a year on anti-doping. Now more recently 
with Agenda 2020, the importance of protecting the clean 
athlete was really put central within the IOC's strategy and 
since then there have been two Olympic Summits which have 
called for an increase in independence, increased 
harmonization, and increased transparency.
    Now my own personal and professional commitment to this 
really began in 1984 when as a rowing athlete I won an Olympic 
gold medal in Los Angeles. Since then I've been a sport 
medicine doctor and looked after Olympic athletes all around 
the world for more than 25 years. And that's given me a 
passionate commitment that we have to do everything we possibly 
can to ensure that Olympic athletes like the two fantastic 
Olympic athletes we have with us today can be as sure as 
possible that they are competing on a level playing field.
    Now in 2012 I became chief medical officer for the London 
Olympics, and then since 2012 I've been the IOC medical and 
scientific director responsible for the prevention of injuries 
and illness in athletes, for education research, and of course 
for anti-doping which of course is a threat to health.
    As we've heard, there's a small silver lining in the recent 
scandals, which is this acceptance amongst the anti-doping 
community that we have to strengthen the world anti-doping 
system. And I really appreciate you calling this hearing and 
giving the platform for us to make changes and for the support 
of WADA from the U.S. For the IOC's part, we strongly support 
the regulatory role of WADA, standards, compliance as you've 
heard, and assessment of anti-doping organizations. But this 
will only succeed if it's seen as fair. So there must be 
respect for individual justice and we mustn't sanction or 
punish athletes for the failure of others.
    As part of governance, the IOC have called for leaders of 
WADA to be independent, so we're in agreement on that--
independent from sport and government--and we've called for 
further independence through the whole system, separating 
legislation from policing and from sanctioning so you don't 
have the same body setting the rules, enforcing the rules, and 
actually determining the punishment.
    In order to avoid conflict of interest or any perception of 
conflict of interest, the IOC have called for anti-doping 
testing to be independent all around the world. And as a 
result, the independent testing authority could do everything 
from the testing and analysis through to the storing of samples 
for up to 10 years and the reanalysis through to the 
prosecution of cases in the same way as the IOC did in Rio, 
where it made that independent from the IOC through a CAS 
arbitration panel. This way, with an independent testing 
authority, athletes can be confident that their peers 
throughout the world are also being tested to a similar 
standard.
    As regards to the McLaren Report, this was a shocking 
institutional conspiracy. The IOC have taken it extremely 
seriously. As you've heard, there were two commissions, an 
inquiry commission under Samuel Schmid, past President of 
Switzerland, looking at the whole, and a disciplinary 
commission under Denis Oswald looking at individual cases. As 
Professor McLaren has acknowledged, there are challenges there 
because the evidence he gathered is not designed to be used to 
prosecute individual cases.
    But we're working hard with further forensic analysis, 
further reanalysis, and gathering of evidence so these cases 
can be pursued with the cooperation of WADA, of the independent 
person and his team, and also the international federations. 
These commissions are ongoing and should finish in time for the 
Pyongchang Games. They must finish by then.
    Ultimately, the goal of the IOC is the protection of the 
clean athlete, and we are fully determined to work with all 
those involved in this fight as WADA, the international 
federations, the athletes and their entourage, and with 
governments. So thank you for this opportunity to address you, 
and I'm ready to answer any questions. Thank you.
    [The prepared statement of Dr. Budgett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. Thank you to all of our witnesses today. I will 
recognize myself for 5 minute of questions.
    So recently, nearly two dozen national anti-doping agencies 
have voiced support for a number of reforms they believe are 
necessary to strengthen international anti-doping oversight and 
enforcement. Central to these reforms is the removal of sports 
organizations from the governance of anti-doping organizations 
including WADA. This would eliminate what many view as a 
glaring conflict of interest, in Mr. Tygart's words, the fox 
guarding the henhouse.
    So Mr. Koehler, based on your experience at WADA, would the 
removal of sports organizations from your governance structure 
improve your independence and operations?
    Mr. Koehler. Thank you, Mr. Chair. I think the first thing 
I want to draw back is we hear the word, WADA is broken, WADA 
needs to be fixed. And we're here today for the simple reason 
that WADA did a lot to expose doping in Russia and it brought 
to the forefront the major issues.
    Mr. Murphy. Right, but would removal of sports 
organizations from your governance structure improve your 
independence and operations? Would it improve it?
    Mr. Koehler. I'm not sure if it will improve it. I think 
there's a process going on right now where we're doing a 
complete governance review on how we can strengthen the 
organization and we are open to any suggestions on the way 
forward.
    Mr. Murphy. Well, Dr. Budgett, do you and the IOC support 
this type of reform?
    Dr. Budgett. Yes, we do support this reform and we----
    Mr. Murphy. Are you taking steps to invoke this change?
    Dr. Budgett. Yes. So and in fact WADA, to be honest, have 
taken steps to invoke that change with this governance review 
which has independent experts as well as representatives from 
sport and from government to look at the total governance of 
WADA, and particularly the executive board should be 
independent of both sport and government.
    Mr. Murphy. Mr. Tygart, do you have anything to add to 
those comments?
    Mr. Tygart. I would just say if in fact that's now the 
position that's wonderful. We'll see if it happens. We've had 
2-plus years for that move to be made and athletes are still 
waiting for some change and that sport today, frankly, could 
remove themselves from the governance of WADA, but we haven't 
seen it. We've heard discussion of separation of powers and we 
certainly agree with that basic principle.
    And you can have sport involved in the legislative branch, 
but when it comes time to the most important functions to 
protecting clean athletes is to have an executive function that 
is free of the fox attempting to guard itself and not 
conflicted by that. And we've yet to have a definitive 
statement or position by the IOC to remove themselves from 
that.
    Mr. Murphy. Thank you.
    Mr. Tygart. So if that's the position, we fully agree and 
we're thrilled.
    Mr. Murphy. Thank you.
    Mr. Tygart. If that's now the position.
    Mr. Murphy. Mr. Phelps, in your testimony you write that--
it is an important quote--``To believe in yourself through 
sport, you need to be able to believe in the system that 
safeguards clean sport and fair play. All athletes must be held 
to the same standards, which need to be implemented and 
enforced with consistency and independence.''
    So given these recent events, what effect does a doping 
scheme of this magnitude have upon you as an athlete?
    Mr. Phelps. I mean, one of the kind of craziest things and 
biggest things that comes to my mind when I think of 
international sports is--and I've said this to Travis--I don't 
believe that I've stood up at an international competition and 
the rest of the field has been clean. I don't believe that. I 
don't think I've ever felt that.
    And I know that when I do stand up in the U.S., I know 
we're all clean because we're going through the same thing. 
We're going through the whereabouts, we're going through the 
out of competition tests, we're doing all of that stuff. So I 
think for me in terms of internationally, I think there has to 
be something done, and like I said it has to be done now.
    Mr. Murphy. And Mr. Nelson, how about you? And what effect 
does this have on our youth, especially those that also have 
dreams about being the best and competing on Olympic level?
    Mr. Nelson. This notion of trust is really important. As 
athletes we trust that these organizations that are looking out 
for our best interests, our competitive interests, our 
integrity, are doing their jobs to the best of their abilities 
and being open and honest and transparent with how things are 
going.
    Last year, or 2015, I think there was a major violation in 
that trust and things that we used to as athletes maybe not pay 
as close attention to or say someone else is looking after it. 
Now I think we see a change in the culture of athletes that 
says they're not doing their job appropriately yet, we have to 
do it for them. And I think that that's a big shift in the 
culture of athletics going on right now.
    Mr. Murphy. Thank you. I am just going to recognize Ms. 
DeGette now for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman. Mr. Tygart, I found 
your written and also your oral testimony to be refreshingly 
honest, and I want to talk about a few of the findings that you 
made. You referred in your written testimony to the Russian 
cheating scheme as shockingly pervasive and noted that it, 
quote, spread across more than 30 sports from at least 2011 to 
2015; is that correct?
    Mr. Tygart. Yes, ma'am.
    Ms. DeGette. And you also said, quote, Russia's methods of 
cheating went from abhorrent to something out of a spy novel. 
Samples passed through walls, government intelligence officers, 
male DNA in female samples, and emails to the Russian Ministry 
of Sport looking for guidance on which doped athletes to 
protect and which to satisfy; is that correct?
    Mr. Tygart. Yes, ma'am.
    Ms. DeGette. Now also in your testimony you describe this 
as a, quote, nightmare realized, and you point out that 
whistleblowers and journalists played a major role in 
unearthing this scheme. Now Mr. Tygart, some of these 
whistleblowers feared for their own safety; is that correct?
    Mr. Tygart. Yes.
    Ms. DeGette. In fact some of those folks are still in 
hiding in the United States; is that right?
    Mr. Tygart. That's right.
    Ms. DeGette. Also WADA's independent investigation 
determined that the Russian Security Service, also known as the 
FSB, took part in this cheating scheme; is that correct?
    Mr. Tygart. That's right.
    Ms. DeGette. Now WADA's independent investigation found 
that over 1,000 Russian athletes might have benefited from the 
Russian doping scheme; is that correct?
    Mr. Tygart. Yes, it is.
    Ms. DeGette. And you also said in your testimony that, 
quote, despite mountains of evidence, the IOC chose not to 
stand up for clean athletes and against institutionalized 
doping. You said that the IOC's decision not to ban Russia was, 
quote, defining moment and, quote, the IOC failed to lead. 
Finally, you said, history will not judge the IOC's decision 
kindly. Is that an accurate----
    Mr. Tygart. It is.
    Ms. DeGette. So I want to ask you, Mr. Tygart, what should 
the IOC and the anti-doping community be doing now to address 
the findings of WADA's independent investigation?
    Mr. Tygart. I think outside of the reform proposals that 
we've put forward, which we think are critically important and 
the 22-plus NADOs from around the world have agreed, you have 
to, the silver bullet if there is one to curing this is 
removing the fox from guarding the henhouse.
    Now while it wasn't in the IOC's prepared remarks that were 
submitted yesterday, I think I heard that that is something 
they're prepared to do, remove sport leaders from the WADA 
governance board, and if that's the case that goes a long way 
in solving the concerns. They also have to finish the 
investigation and ensure that the individual cases are followed 
up on and any athletes from around the world that were robbed 
get their rightful place on the podium and are given a 
meaningful celebration.
    Ms. DeGette. And just to ask, are you familiar with this 
letter that the Director General of the IOC sent on February 
23rd, 2017?
    Mr. Tygart. I am.
    Ms. DeGette. And in that letter he says, ``The Schmid 
Commission, which has to address the substantial allegations 
about the potential systematic manipulation of the anti-doping 
samples, is also continuing its work.'' And then it says they 
are talking about a, quote, state-sponsored system, whilst in 
the final full report in December they talked about an 
``institutional conspiracy.'' And they said now they are going 
to have to, quote, consider what this change means and what 
individuals, organizations, or government authorities may have 
been involved. Do you have any idea what they are talking about 
there?
    Mr. Tygart. I'm not exactly sure.
    Ms. DeGette. Because this is what I am concerned about. You 
know, this committee, we did an investigation many years ago 
around the Salt Lake City Olympics, and this is the same kind 
of gobbledygook we got from the IOC then. They have these 
unending investigations. They are looking at angels dancing on 
the head of a pin. I don't even know what they are talking 
about, but you are saying you don't, either.
    Mr. Tygart. I'm not sure.
    Ms. DeGette. OK. I want to ask you, Mr. Phelps, and you, 
Mr. Nelson, just briefly, what structural changes need to be 
made to the global anti-doping system to prevent this kind of 
activity from happening again?
    Mr. Phelps. For me, I can say from spending and working a 
lot of time with USADA, look at the independence that they 
have. I think that's something that's so powerful, that us as 
American athletes know that we're doing the right thing and 
they're doing the right thing as well. So I mean, I think if 
you could change something like that I think it would be great.
    Ms. DeGette. Mr. Nelson.
    Mr. Nelson. I think the first change has to be holding all 
the different stakeholders in this mess to the same level of 
accountability that they hold the athletes to. If you strictly 
enforce the rules for compliance at a national level or a 
federation level, you'll see people hop in line very quickly, 
because they will lose the opportunity to compete and their 
athletes will lose the opportunity to compete.
    The second thing is also transparency in reporting. As an 
athlete, I've always struggled to figure out how well this 
group is doing because the information's not necessarily 
readily available. Now there's been some steps I think in the 
last few years to help with that, but the number of adverse 
findings given the number of samples that are actually 
collected each year suggest that either the problem is not as 
pervasive as they think or that the testing isn't quite there 
yet.
    Ms. DeGette. Thank you very much.
    Mr. Chairman, I would ask unanimous consent to put this 
February 23rd letter from the IOC into the record.
    Mr. Murphy. Thank you. Without objection, that will happen.
    [The information appears at the conclusion of the hearing.]
    Mr. Murphy. I now recognize Mr. Walden for 5 minutes.
    Mr. Walden. Thank you very much, Mr. Chairman. Again thanks 
to all of our witnesses, your testimony has been most helpful 
in our work. And I want to just ask our Olympians again to make 
this clear, you don't think you have ever competed in a clean 
Olympics; is that right?
    Mr. Phelps. Internationally, whether it's world 
championships or the Olympic Games, I don't feel that. No.
    Mr. Walden. Mr. Nelson?
    Mr. Nelson. No.
    Mr. Walden. OK. Now Dr. Budgett, I have a question for you. 
I just want to clarify to make sure we all heard this the same 
way that your organization now would support removing sport 
leaders from the WADA board; is that true?
    Dr. Budgett. That's absolutely correct, obviously within a 
structure of governance that will be developed through this 
governance working part that the WADA have put together. It 
should happen within the year.
    Mr. Walden. Within the year, OK, so I want to go back. Here 
is why I think a lot of us are concerned. There are 
whistleblowers as far back as 2010 who probably risked more 
than just their ability to compete to come forward and share 
with the organization what was going on. And it strikes me that 
it wasn't until there were investigative press reports that 
anything happened. And so the question is do you have a process 
that we can trust that whistleblowers who take great risk could 
trust to come forward and actually have some action taken on 
what they share? Because clearly people are at great risk when 
they come forward and they are not going to do it if they think 
they are just going to get blown off. And so I mean, you have 
got to convince us that something is going to really change 
here.
    Dr. Budgett. Yes. I mean that is why WADA is in place, so I 
would refer that question to my colleague on my right. But just 
to reiterate that the IOC is in the process of removing the fox 
from the henhouse, and I think it's a good analogy. So we are 
actually in the process, we're relinquishing all control over 
anti-doping.
    Mr. Walden. Right.
    Dr. Budgett. And I'm going to pass it to this independent 
testing authority.
    Mr. Walden. Because, you know, I have a degree in 
journalism. I was in the radio business--sources matter. 
Sources matter, it is how organizations and the press can do 
their job effectively, but if they are ignored they go away and 
we lose out.
    Mr. Koehler, whistle----
    Mr. Koehler. I fully agree--sorry.
    Mr. Walden. Go ahead.
    Mr. Koehler. Thank you. It is so important to protect the 
whistleblowers, and I think it's the right time to recognize 
two very brave whistleblowers, the Stepanovas, who came forward 
in early 2010. Yes, we didn't have the power to investigate it, 
but what I can tell you during that time is that when the 
Stepanovas came forward our ultimate goal was to protect their 
safety. We had information from them that came from the IAAF 
about corruption, from Russia about corruption. We didn't know 
who to hand it to, so we were in a difficult position and we 
had no power to investigate. There's no question when the 
Stepanovas came forward.
    Mr. Walden. So who had the power to investigate?
    Mr. Koehler. Nobody except the national federations, so the 
Government or the International Athletics Federation, and it 
wasn't until 2015 that the Code changed and gave us that power 
to investigate.
    Mr. Walden. What a broken system. What a broken system up 
to that point. I mean how else can you look at this? Now you 
have got these new reports. You have the--thank God for the 
investigative journalists that blew the doors open on this. So 
now you have got the reports, now you are going to give us 
confidence that you are going to reorganize this operation and 
get to the point where we don't have conflicts of interest and 
where our athletes, especially U.S. athletes that play by the 
rules, can compete against other athletes that play by the 
rules, right?
    Mr. Koehler. I can tell you that, categorically, that any 
whistleblower that comes forward to this day as of 2015, that 
our number-one priority is to protect them, to protect their 
rights. Even when we didn't have the investigative power we 
took it upon ourselves to protect the Stepanovas to make sure 
they were safe.
    Mr. Walden. So are you aware of any whistleblowers who have 
come forth recently and made additional allegations?
    Mr. Koehler. We are, yes.
    Mr. Walden. And are those allegations being investigated in 
any manner, or do you still lack that authority?
    Mr. Koehler. Absolutely, all are being investigated.
    Mr. Walden. So what happens, I mean once you complete your 
investigation? Who rules, walk me through that part.
    Mr. Koehler. Any time there's a whistleblower that comes 
forward our investigative team which again is going to be six 
people, not nearly enough for a global organization.
    Mr. Walden. Right.
    Mr. Koehler. They have an independent role to bring forward 
and to research and investigate anti-doping rule violations. 
Should they have evidence, then they will bring it forward to 
the WADA management and to the WADA committees and to the WADA 
Foundation Board to report and determine what sanctions should 
be required.
    Mr. Walden. Mr. Tygart is shaking his head.
    Mr. Tygart. I'm sorry.
    Mr. Walden. Go ahead.
    Mr. Tygart. I just think there's a really important point 
here and it's what I said in my oral testimony about deputizing 
the fox. If the WADA Foundation Board that is making 
determinations and overseeing investigations or testing, and 
Dr. Budgett talked about removing sport from the WADA 
Governance Board and not just from a testing organization, that 
is a critical point because if you continue to have sport 
overseeing investigations, determining compliance, acting as a 
global regulator of itself, it's no different than the current 
status quo which is the fox guarding the henhouse.
    And so we have to, it would be great to have a definitive 
conclusion if the IOC's position today is at the WADA 
governance level, the global regulator, they are going to 
remove themselves from that board which they could do today. It 
doesn't take another Summit to do that. They could do it today.
    Mr. Walden. All right, my time is expired. Thank you, Mr. 
Chairman. Thank you to our witnesses.
    Mr. Murphy. I now recognize Mr. Pallone for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I want to discuss the 
role of the athletes in addressing the challenges we face with 
doping. And Mr. Tygart, in an article you wrote called The 
Athletes Voice: A Force For Change you say, and I quote, At the 
end of the day, it's the athletes, not the suits, who billions 
of people around the world tune in to watch. It's the athletes 
who leave us holding our breath. Without them, there is no 
sport. And without them, there is no true and lasting change, 
unquote.
    So you say in your testimony that now more than ever 
athletes are mobilizing and voicing their opinions. My question 
is what role should athletes play in terms of policing their 
own sports specifically and the anti-doping structure more 
broadly?
    Mr. Tygart. Well, it starts with the athletes. I mean they 
own the culture of sport and it's wonderful. It's sad it took 
this scandal to mobilize them in the way that it has, but it's 
wonderful that they're now mobilizing and realizing how 
important this right is to them. But they also have to have 
confidence in the system, should have a clear voice in the 
system, but just like the sports organizations they can't play 
a role as active athletes in testing themselves. That would be 
like the fox guarding the henhouse.
    There has to be an independent organization that does it on 
behalf of those athletes, but them protecting that field that 
they exist in is absolutely critical. And we won't ultimately 
be successful without their buy-in to the program, faith and 
trust in the system, and willingness to do everything possible 
to win, but do it by playing by the rules.
    Mr. Pallone. Thanks. I am going to ask Mr. Phelps the same 
question. What is the role that athletes should be playing in 
terms of ensuring their sports are free from doping?
    Mr. Phelps. For me, as an athlete I have always made sure 
that I take care of myself and prepare myself the best way 
possible. That's what I've always done. I've never voiced 
opinions. I've always kept in, I've stayed in my lane, so to 
say, all the time. Because it's, you know, for me it takes away 
what I'm doing. You know, it takes away what I'm trying to 
accomplish, and I think that's just one thing for me that I 
never did. I never voiced opinions, really, before this year.
    And, you know, obviously, as an athlete who's been around 
for a couple of Olympics and seen a lot of things happen, it 
gets frustrating. And we want to be, you know, for me I would 
like to stand up on the block in an international competition 
and know that the other seven competitors that I'm racing 
against prepared just like I did. They went through the exact 
same hard work that I did. They dedicated themselves to doing 
what nobody has done before, or, you know, to accomplishing 
their goal. And that would be a dream for me, and I hope to be 
able to see that one day.
    Mr. Pallone. Well, thanks.
    Mr. Nelson, should athletes be more vocal going forward and 
demand reform so that we can better ensure the systems in place 
will guarantee clean play?
    Mr. Nelson. Yes, I believe they should be more vocal. But 
more than just using their words, I think they need to be 
integrated into the solution, as well. Right now, the way 
athletes' voices are integrated into the solution of Olympic 
sports is through the internal athletes' advisory committees. 
Those committees very rarely have the power to influence, to do 
anything other than influence policy with people coming to them 
by asking questions. It's a reactive force, not a proactive 
force.
    With this particular issue, considering that it invades on 
so many athletes, it invades on the privacy of so many 
athletes, it's a huge burden that these athletes bear, we 
accept this burden with open arms but we have no input into it. 
So if you really are about building trust for the athletes and 
changing the culture, you have to find a way to insert their 
voice into the leadership and the actual structure of the 
solution.
    Mr. Pallone. Well, thanks. I am just going to go back to 
Mr. Tygart for one more question. Given the findings of WADA's 
independent investigation regarding widespread cheating, it was 
my understanding that the athletes were prepared to boycott the 
international bobsled and skeleton championship that were set 
to take place in Sochi this month. In your testimony you state 
that athletes around the world have taken up this cause.
    So my question is, What can you tell us about the potential 
athlete boycott of that event? Are we going to see more 
instances of that, where athletes put their feet down and, you 
know, participate in boycotts?
    Mr. Tygart. I hope not. And I say that because I know--and 
I've talked to athletes about that very issue and talked with 
many of those bobsled athletes about it--that's an untenable 
position to put an athlete, that your sports organization is 
not going to enforce the decision it made to bar events from 
Russia, you're concerned about your own sample security in the 
testing regime to go to Russia, or you decide to boycott. 
That's not fair to those athletes, and we should not put 
athletes in those positions to even have to make that decision.
    And we don't have to, because sport and the anti-doping 
system can determine to enforce the decisions that have been 
made, not have events in Russia until they clean up their act, 
become WADA Code-compliant, and then you alleviate that concern 
from athletes' minds. But I don't for a second hope that any 
athletes have to boycott. That said, they're frustrated, and I 
think that's a very good example, when they're willing to even 
consider that option, that they're frustrated and they want 
change and they want change now.
    Mr. Pallone. Thank you. Well, thank you. I am out of time. 
Thank you, Mr. Chairman.
    Mr. Murphy. Thank you. I will recognize the vice chairman 
of the subcommittee, Mr. Griffith of Virginia, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman, and thank 
all of you all for being here. I know that the folks assembled 
here today are the good guys. We are just trying to figure out 
how we get it where it is right. So with that being said, I 
think I am hearing some meeting of the minds going on. So Dr. 
Budgett, am I hearing you say that the IOC is prepared to not 
only relinquish the Governance Board or the direct contact with 
the Governance Board, but also investigations in testing, or 
have I gone a bridge too far?
    Dr. Budgett. You're actually correct about the 
investigation testing and that is something the IOC have called 
for since the Olympic Summit and it's very important. We 
certainly want to do it for sport and I think actually there's 
a conflict of interest with government as well, because 
actually that's what was happening in Russia. So we need to 
look across the whole of anti-doping. And when it comes to the 
governance of WADA, I think that has to go through due process.
    And so I don't know exactly what structure will come out, 
what representation there will be from sport, whether it will 
be a minority representation so there's some link, but that is 
for the people in charge of governance to sort out. But 
certainly on the actual testing and the whole structure around 
that, that will be completely independent.
    Mr. Griffith. And then the Governance Board is in question, 
but you anticipate some reforms before the end of this year?
    Dr. Budgett. I certainly hope so. The first meeting's in a 
week or so.
    Mr. Griffith. All right, I appreciate that. Let me ask you 
this question as long as I have got you, and it may be what Mr. 
Koehler touched on earlier. Mr. Nelson showed us his medal 
earlier and, you know, that was really a special moment, but a 
food court in Atlanta is not appropriate. I would just say as 
somebody who tries to problem solve, and I know a lot of us up 
here do that. Even when we have disagreements we try to problem 
solve.
    Why not weave in any medals that are given late, because 
somebody cheated, at the opening ceremonies of the next 
Olympics for that particular sport? It seems to me that would 
make Mr. Nelson's experience much more special. I wasn't going 
to ask you if you thought that was good, but do you think that 
sounds like a better way than getting it with a Happy Meal?
    Mr. Nelson. It was a really cool toy.
    [Laughter.]
    Mr. Nelson. Yes, I think that's a big step forward and 
would certainly recognize the issue and not sort of try to 
sweep it under the rug, which I think is important as well.
    Mr. Griffith. Yes. Mr. Phelps, I think the entire American 
swimming team brought this up maybe accidentally, but with 
Lilly King and others talking about this openly at the Olympics 
last summer it became an issue that most Americans are now 
aware of and probably millions more around the world. I 
appreciate you all doing that and appreciate you being here 
today and taking out your time to join us. Is there anything 
that you want to touch on that you haven't had an opportunity 
to speak on thus far?
    Mr. Phelps. I mean, not today. I mean, I will say I agree 
with what you're saying about going to the next Olympics. You 
know, for me, as I said in my testimony, there's nothing better 
than watching your flag rise, listening to the national anthem. 
You know, for me that's one of the greatest things that I will 
miss the most. And to be able to represent your country and 
have that moment, that special moment, I feel he deserves that.
    Mr. Griffith. And I completely agree. I will take you back 
in time a little bit. How long did it take you when you started 
complaining about the long swimming suits before the IOC 
changed those? Because we have been working on drugs for 30, 40 
years, didn't it only take swimming, the swimming suits got 
changed in a couple years?
    Mr. Phelps. It wasn't long.
    Mr. Griffith. Yes.
    Mr. Phelps. I know, I think the larger suits probably came 
out in '07-ish, and by world championships of '09 that was the 
last chance that anyone had the opportunity to swim in them. 
And like I said then, that took away from the actual sport. 
That wasn't the sport, it was swimming manufacturers trying to 
come up with a suit that they think is the fastest, and some of 
them were different than others.
    And you can go into a lot of technical parts there but--and 
quickly we got that removed, so hopefully we can get this 
resolved, as well.
    Mr. Griffith. Yes, and I hope so too.
    Mr. Tygart, I know you have indicated some frustration, but 
what you are hearing today does that give you some hope that we 
are in fact on the right path to getting this situation--look, 
there is always going to be cheaters, but getting it to a point 
where we are actually governing?
    Mr. Tygart. Our position along with 22 other national anti-
doping organizations around the world is crystal clear that we 
have to remove the fox from the governance. So if WADA's 
governing board still determines the consequence, for example, 
of an investigation and still determines what testing plans are 
acceptable, still is responsible ultimately for determining who 
is in compliance with the rules, who is not, that's no 
different than what we currently have.
    And so we're not in agreement with that and we'll continue 
to push because we recognize the solution is to remove the fox 
from guarding the henhouse because you can't effectively 
promote and police. And athletes can't believe in a system when 
sport still determines what's in its best interest and controls 
the material aspects of anti-doping.
    Mr. Griffith. And just quickly going back to Mr. Nelson's 
situation, don't you think we can do this a little faster than 
8 years in finding out who the cheaters are?
    Mr. Tygart. We should prevent them from coming to begin 
with. And in Rio there were 1,913 athletes--1,913 athletes out 
of the 11,000 athletes in Rio--from 10 high-risk sports that 
had no tests of record prior to the Rio Games. Ten high-risk 
sports, how unacceptable is that? That's what happens when 
sport--and it's the IOC's responsibility for the Games--that's 
what happens when sport attempts to protect it and police 
itself. And the announcement following that report was that the 
integrity of the Games was upheld. I'm not sure it was, but at 
the end of the day we need to stop that from happening, to 
ensure that we prevent dopers from going to the Games to begin 
with.
    Mr. Griffith. And my time is up, so I yield back.
    Mr. Murphy. Mr. Phelps, were you going to----
    Mr. Phelps. Travis, what did we say the number was for six 
months leading into the Games that I was tested, was it a 
baker's dozen?
    Mr. Tygart. It was a baker's dozen.
    Mr. Phelps. It was a baker's dozen. So you're saying there 
were over 1,900 athletes in the top 10 sports that weren't 
tested?
    Mr. Murphy. And you were tested a dozen times.
    Mr. Phelps. Thirteen, yes.
    Mr. Murphy. Baker's dozen. Thank you.
    Ms. Schakowsky, you are recognized for 5 minutes.
    Ms. Schakowsky. Thank you. I really want to thank the 
witnesses and actually the athletes. I find it so shocking that 
you both said that in the Olympic Games and in international 
competitions you can't feel confident, that you don't feel 
confident that someone hasn't been doped.
    And so I am hopeful that in this very bipartisan hearing 
today that we are having that we are going to be able to 
contribute to alleviating that lack of confidence so that when 
the kids that you work with now have their dreams that they can 
believe. And I want to thank you too, Mr. Tygart, and hopefully 
all of you for restoring that confidence to Americans.
    I did want to requote. Congresswoman DeGette quoted you, 
Mr. Tygart, saying that despite mountains of evidence and vocal 
opposition from anti-doping groups, the IOC chose not to stand 
up for clean athletes and against institutionalized doping. And 
that you pointed out that the IOC, quote, punted, unquote, the 
decision to the international sports federations, and they 
missed an opportunity to stand for clean athletes and send a 
clear message.
    So how should the IOC at the time have held Russia 
accountable for its deception as described in WADA's 
independent investigation?
    Mr. Tygart. And thank you for the question. And we were 
very clear along with 13 other national anti-doping 
organizations, literally from around the world, who sent a 
letter to the IOC after the McLaren Report and it exposed 
Russia, institutionalized doping was established, and said 
listen, you can't reward the Olympic committee whose 
responsibility it is as a member of the IOC who was complicit 
in it, according to some of the evidence, as well as has 
responsibility in their own country to ensure nothing like that 
ever happens. This is the antithesis of the Olympic movement 
and the values, so don't allow them to come.
    They've done it in other circumstances, not on doping but 
Apartheid, for example, wouldn't let the South African NOC come 
because of actions by the state and things that were going on, 
so they have the power to do it. They chose not to do it. Our 
recommendation was don't let the Russian Olympic Committee 
there, but have a uniform and consistent application by 
individual athletes who might not have been part of the system, 
if there are any, and who weren't tainted by that system. But 
don't just hand it off to 38 different sport federations who 
don't have the time, the money, the resources, the expertise 
and days before Rio--it's a mess.
    Ms. Schakowsky. So do you believe that Russia has been 
sufficiently held accountable for this corruption?
    Mr. Tygart. We don't.
    Ms. Schakowsky. I understand that the IOC has formed these 
two committees to look further into the evidence presented in 
WADA's independent investigation. Do you have confidence in 
those two committees?
    Mr. Tygart. Again without beating my drum too much, it's 
the fox guarding the henhouse. You have a sport-run 
investigation who's going to make determinations at this point 
in the ball game, and you can't have trust in the outcomes of 
those investigations unfortunately because the perception is 
what we all know that you can't both promote and police your 
sport particularly on the heels of allowing the athletes to go 
and the Russia Olympic Committee to go.
    So there is a sort of self-fulfilling prophecy, right, that 
you don't want to be successful in those cases to justify your 
decision to let them in to begin with. And I'm not saying 
they're going to do that. I'm just saying that's the perception 
that is out there that we hear from athletes all the time who 
are concerned about that.
    Ms. Schakowsky. Based on what you heard today at this 
hearing and if those promises are implemented would you then 
have confidence?
    Mr. Tygart. Still the governance piece is still troubling 
and will not allow it, the full independence free from that 
promoting and policing aspect that it needs to regain the 
confidence in the way that it could. And that model has worked 
in other parts of the country, and there's no good reason not 
to other than to control the outcomes. Why wouldn't you let go 
of the governance if you know athletes will have more 
confidence in it, national anti-doping agencies will have more 
confidence in it? The only reason is so you can continue to 
control it. There's no other good reason.
    Ms. Schakowsky. And all the fans and all the people who are 
inspired by it would have more confidence. Let me just ask you 
finally, how did the Russian situation go undetected for so 
long? What failed?
    Mr. Tygart. And I disagree with Mr. Koehler on WADA's 
ability to investigate going back to 2010. Many of us believe 
they have the power to do it. But what's unquestioned ,and I 
don't think he would disagree with, is that they did have the 
clear powers to hold organizations compliant. And this issue of 
countries and sports, whether they were compliant with the 
rules or not frequently came to their board, and it was 
determined they weren't going to make decisions on compliance.
    And that is the fox saying we're not going to hold 
ourselves accountable because of the bad PR that would result 
if we said these organizations aren't accountable. So we have 
to remove that fox to ensure the authority they have clearly 
now to investigate we think they had in the past, and what they 
had in the past and clearly have today to do compliance is 
actually done in a way that's free of the sport influence and 
for the good of clean athletes and for no other reason.
    Mr. Murphy. Thank you.
    Ms. Schakowsky. Thank you. I yield back.
    Mr. Murphy. Thank you. I recognize Mrs. Brooks of Indiana 
for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman, and thank you all so 
very much for being here and sharing with us, educating us all 
on the challenges that you face.
    Mr. Tygart, besides removing the fox, the sports 
organizations from the governance of anti-doping organizations, 
what are some of the other reforms that you believe are 
necessary that have been advocated by other NADOs to enhance 
WADA's authorities and to enhance maybe even their resources to 
investigate?
    Mr. Tygart. I think it's improved independence and 
transparency, board limits, clear process for how board members 
are appointed and voted and of course increased investment. We 
think they have and have had the authority to investigate, but 
if there's any question about that and their position is 
different on it make that absolutely clear. Actually do the job 
of monitoring compliance and have a clear plan for how you're 
going to do that.
    Mrs. Brooks. And do you believe then that based on those 
types of reforms it could actually address an issue as large as 
nation-state-sponsored doping?
    Mr. Tygart. I do. I think you can have--it all came back to 
whistleblowers. The media put it out there. If we had the same 
will and determination free of any conflict not to do the right 
thing, it's not holding governments accountable. What it's 
doing is investigating sport and holding sport accountable. And 
the IOC through its Olympic charter then can hold national 
Olympic committees accountable and that easily can be done, I 
think, if the process is determined to make sure clean athletes 
around the world happen and that these types of institutional 
doping situations don't ever happen again.
    Mrs. Brooks. Mr. Koehler, can you please, if you would 
please respond to what Mr. Tygart's suggestions are, 
particularly with respect to WADA's view of its authority to 
hold nation-states responsible, and have you ever done so?
    Mr. Koehler. Well, I'd first like to clarify that it's fact 
that prior to 2015 WADA did not have the powers to investigate 
and that didn't come into force until the World Anti-Doping 
Code was established with the revision. We are----
    Mrs. Brooks. Just out of curiosity, you have been in 
existence though since 1999?
    Mr. Koehler. That's correct.
    Mrs. Brooks. And so how and why is it that you did not get 
investigative authority until 2015?
    Mr. Koehler. The first Code came into force in 2003 and 
there's been three iterations since. The Code is not WADA's 
code. The Code has been developed by stakeholder consultation 
and everybody feeds into it. It was an evolving system. And to 
be honest, the reason the investigation came in was we saw the 
power of the whistleblowers coming forward and they needed an 
independent body to investigate.
    Mrs. Brooks. So when WADA was created in 1999--forgive me, 
I don't know all the history--it was never intended to be an 
investigative authority when it has to do with the anti-doping?
    Mr. Koehler. That's correct.
    Mrs. Brooks. And so it wasn't until then '03 all the 
different codes come to be, but then so what is it besides 
educating and besides testing, what is it that you would 
attribute as WADA's successes, what is it you have done if you 
weren't able to investigate until 2015?
    Mr. Koehler. There's been evolution in the anti-doping 
system. We've done a lot in fact. The first thing we did was 
harmonize anti-doping rules. Prior to the Code, an athlete in 
Russia and an athlete in the United States could potentially 
have different sanctions, so one could have 2 years and one 
could have 4 years. And different sports had different 
sanctions, so we harmonized that process.
    Mrs. Brooks. Excuse me, but how do you then have 1,900 
athletes out of 11,000 not being subject to doping testing at 
all?
    Mr. Koehler. I fully agree with Mr. Tygart's comment. This 
should not happen, this cannot happen, and there needs to be a 
further investment in anti-doping to ensure it doesn't happen. 
One thing I raised earlier was we are now moving into a system 
of noncompliance and compliance review. In the past it hasn't 
been as rigorous as it should have been. Now there's a call by 
athletes, by the anti-doping community, to go in and audit, to 
go in and make people accountable, and if they are not doing it 
we have appointed an independent compliance review committee to 
make a call on countries, on sports that are deemed not doing 
the work to make them compliant. It's time to change and those 
countries that are not doing the amount of testing they need to 
be made accountable.
    Mrs. Brooks. And would it be your request that maybe six 
investigators to investigate the world of athletes might not be 
sufficient, and what percentage of your budget is allocated 
towards investigations?
    Mr. Koehler. It's an understatement. Six is definitely not 
enough, but we're working on it a very minimal budget. As was 
mentioned for the two reports, the independent reports that 
we've covered, we spent over $2 1A\1/2\ million just on two 
reports. So out of a $27.5 million budget we simply do not have 
enough to continue to really react to the needs of the 
athletes.
    Mrs. Brooks. But maybe the budget should be reallocated to 
increase the amount of funds on investigations relative to your 
other duties. With that I yield back.
    Mr. Murphy. I recognize Ms. Castor for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman. Thank you to the 
witnesses for being here. International sports' anti-doping 
enforcement is flawed and it is clear that the tools to enforce 
sanctions on athletes and countries who cheat have to be 
strengthened. Look no further than July 2016, the World Anti-
Doping Agency executive committee recommended to the IOC that 
it ban Russian athletes from the 2016 Games, and despite that 
recommendation the IOC decided to allow Russian athletes to 
participate in the Rio Games.
    If the Russian Sports Federation carried out an analysis on 
their own and looked at the individuals' anti-doping records 
then they could, Russia could approve them to participate. But 
then at the end of the year there were press reports. The 
Acting Director General of Russia's national anti-doping agency 
said no, actually what has been going on in Russia for a long 
time is an institutional conspiracy, years' worth of cheating 
schemes, while emphasizing that the Government's top officials 
were not involved.
    But the New York Times reported a lab director tampered 
with urine samples at the Olympics and provided cocktails of 
performance-enhancing drugs, corrupting some of the world's 
most prestigious competitions. Members of the Federal Security 
Services, a successor to the Russian KGB, broke into sample 
bottles holding urine, and a deputy sports minister, for years, 
ordered coverups of top athletes' use of banned substances. Now 
I want everyone to know the Russians have kind of disputed this 
in the following weeks.
    But Mr. Phelps, Mr. Nelson, how frustrating is it for 
athletes? What did you all, what is the feeling like for, as 
you go into these competitions can you screen all of this out 
when you are going in to compete and you know that other 
countries are sanctioning this type of cheating?
    Mr. Phelps. For me, I think, you know, as I said earlier, 
for me having the chance to represent my country was a 
tremendous honor. And you can't do anything about, you know, I 
can't really go at that point and do anything about any other 
athletes. The only person I can take care of is myself. So at 
that point it's, you know, we try to stick together as a team 
and we know that we're going to get up on the block and fight 
as hard as we can.
    Ms. Castor. And meanwhile, what kind of testing are you 
going through and American athletes?
    Mr. Phelps. I can tell you with some of the things that 
I've gone through with filling out paperwork of my whereabouts 
of every single day of where I am so USADA can do out-of-comp 
tests. I mean I've done it for 16 years. I've filled out these 
forms quarterly, right, quarterly. I mean there's stacks of 
paper, and now it's online.
    Ms. Castor. What kind of physical tests?
    Mr. Phelps. Blood tests, urine tests, whenever, I mean it's 
all the time. I mean it was monthly, multiple times a month for 
me and especially when I'm in the U.S. And I mean even when I'm 
overseas. I mean if you go Olympic Games where, I mean, I guess 
the last four I was tested almost every day. So are there 
people going through the same things that I'm going through?
    Ms. Castor. Apparently not.
    Mr. Phelps. I hope so.
    Ms. Castor. Well, apparently not. There are 1,900 athletes 
who competed in the Rio Games that were never tested at all.
    So Mr. Tygart, you have heard Mr. Budgett say that some 
changes are in process to actually take IOC influence out of 
the enforcement side of anti-doping. What does that mean, 
really? Get specific. What has to happen in process to take the 
fox out of the henhouse at this point over the coming months?
    Mr. Tygart. We'll see how it gets fleshed out. It's good 
that we're finally seeing it on Friday and in the testimony at 
that level of detail.
    Ms. Castor. Is this is the governance structure of the IOC 
itself or in the----
    Mr. Tygart. I think the model is just what we know as the 
principle of separation of powers. You've got a legislative 
body that makes the rules, and athletes, even active athletes, 
should play a huge part in that. Sport, governments should do 
that. NADOs should do that. That legislative body ought to 
establish the law and then it should come time to, and totally 
independent, free of sport influence, to have an executive 
branch that then enforces the law. And then of course we have 
to have a judicial branch.
    And the executive branch should have no sport member on it 
and no active athlete because they would be subject to the laws 
that they're supposed to be enforcing. And it should make the 
determination of who's compliant, investigate, ensure that 
testing at national levels by us here at USADA is done in the 
same fashion in the same level of integrity and in compliance 
with the same rules. We will volunteer to be the first one 
audited under that new compliance program as long as everyone 
else is also being audited and held accountable under that new 
program.
    Ms. Castor. Well, thank you for having the intestinal 
fortitude to stand up for our athletes and clean competition 
around the world. I yield back my time.
    Mr. Murphy. Thank you. I now recognize Mr. Collins of New 
York for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I want to thank all 
the witnesses and especially Mr. Nelson and Mr. Phelps. Just 
curious, Mr. Nelson, did the fourth place winner in the shot 
put, was he awarded then the bronze medal? As somebody who 
didn't even have a medal, did he get one?
    Mr. Nelson. Yes, he was.
    Mr. Collins. Well, that is good to hear. I hope it--was it 
too in a food court in Atlanta, or was he even American?
    Mr. Nelson. He was an American, but I don't know where the 
medal was actually given to him.
    Mr. Collins. OK. I am still trying to get my head around 
what you went through. I mean at least you were on a platform 
getting the silver medal, but we all do tend to focus on the 
winner of the gold medal, the winner of the Super Bowl and so 
forth, just amazing.
    So, you know, it is a great hearing. So I am kind of 
curious, Dr. Budgett, as we look at the IOC and I have at least 
read where you are looking at an independent testing agency. 
Overall, you know, I am assuming then that would mean the U.S., 
the U.K., Japan, Canada, some nations that I think, and I will 
ask the athletes, are actually doing the job, would they then 
be replaced with this independent testing?
    Dr. Budgett. Yes. I think I'd like to say that obviously at 
the Olympic Games there's more testing than at any other event 
in the world. But we all recognize that far more important than 
that is the testing that goes on in the lead-up to the Games 
and we've heard how that's not adequate everywhere. That's a 
function of both NADOs like USADA and the international 
federations. So we're working very hard with WADA and a group 
of NADOs including USADA to actually put in place a program of 
testing leading up to the next Games that will be 
comprehensive, targeted, intelligent, all the things we talk 
about now. So that's one aspect.
    The other aspect is to say as we've talked about is the 
independent testing authority which would certainly do all the 
testing that sport's currently doing, and ultimately we have to 
talk to our NADO colleagues, could do the testing for the 
national anti-doping organizations because they have an equal 
conflict of interest when it comes to national interest.
    Mr. Collins. Yes, I am just concerned on the budgetary 
piece, you know, it would appear there are nations the U.S., 
U.K., Japan, and Canada that I would ask maybe Mr. Phelps, are 
actually doing the job. Would you think that those five 
national testing agencies are serious?
    Mr. Phelps. I don't know specifics of what country is 
following the same exact method as we are here in the U.S., and 
I know Travis could answer that a lot better. But, you know, I 
do believe there are countries out there that are going through 
the same process that we are. And, you know, for me, we all 
should be fair and we all should play on the same field.
    And for me as a father now, like I said in my presentation, 
you know, I don't know what I, or how I would even talk to my 
son about doping in sports. Like I would hope to never have 
that conversation and I hope we can get it clear and cleaned up 
by then. You know, for me going through everything I've done 
and, you know, that's probably a question that I could get 
asked from him and I don't know how I would answer it.
    Mr. Collins. Well, it is the win at any cost and certainly 
we are seeing, you know, the health, what is happening to the 
health of athletes who did cheat, you know, and even in 
football, while it wasn't cheating, the concussions and what 
that leads to later in life.
    So Mr. Koehler, on WADA do you have concerns about the 
national anti-doping in certain countries, again like the U.S., 
Canada?
    Mr. Koehler. I wouldn't say we have concerns with the U.S. 
and Canada, but we do have concerns. And I wanted to step back 
if you allow me, Mr. Collins. We can have all the governance 
review in the world, which we welcome and we want. I have been 
in this business for 20 years and it's time for change. It's 
time to put investment into this business. If I look globally, 
amount of money being put into national anti-dope 
organizations, simply insufficient, and there's the crux of the 
issue that more investment needs to be put. This is to protect 
sport, to protect clean athletes. It is so important, and we 
need to start putting that investment in and not just saying it 
but doing it, and until that happens, we'll never see change.
    Mr. Collins. So on the sanctions piece, let me ask the 
athletes. You know, right now we are talking about somebody is 
caught cheating and they are given a 2-year suspension or a 4-
year suspension. Do you think that is adequate, or should we be 
as draconian as a lifetime ban, one-and-done? It would just 
show that, you know, trying to skirt the rules, one-and-done. 
What do you think?
    Mr. Nelson. That's a very good question, sir. To answer it 
I think that you have to have some ability for the athletes to 
protect their own rights in the process as well. And so if 
you're going to increase the level of the penalties associated 
with it, you have to increase the investment and their ability 
to protect themselves as well. A lot of athletes, we're the 
lowest common denominator in this whole big pyramid, right, but 
we're also trusted to make the most critical part of the 
decision making process. We're also the least informed and 
often the least prepared to make it.
    So I'm OK with increasing the penalties and doing something 
like a one-and-done provided there's a provision for some--
there is a gray area here, unfortunately. Emergency therapeutic 
use exemption forms, medical conditions, sometimes require 
certain actions. But I'm OK with a one-and-done. I'm OK with 
financial penalties associated with it. This is a business. We 
treat it a little bit differently because it's Olympic sports, 
but at the end of the day it is a business, so you can hold 
them to the same standard that you might hold people in other 
traditional businesses.
    Mr. Collins. I appreciate that. I know my time is expired 
and I yield back. Thank you very much, all of you, for your 
testimony.
    Mr. Murphy. Thank you. I now recognize Mr. Tonko of New 
York for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and welcome to our 
panelists. And before I begin I would like to offer my welcome 
to Travis Tygart, as we have done a lot of work together in 
addressing the issue of doping, in this case in the sport of 
horse racing. This is a critically important issue for both the 
health of the equine athlete and the integrity of the sport, 
which contributes approximately $4 billion to the New York 
State economy each year and supports some 380,000 domestic jobs 
nationwide.
    If this committee is truly interested in supporting anti-
doping efforts across the board, I would encourage us to 
schedule a hearing on doping in horse racing and the 
legislation I have introduced with my colleague, Representative 
Andy Barr, which would restore integrity back to the sport of 
kings. So back to this particular focus.
    Today we have heard about investigations that revealed 
Russia's efforts to manipulate drug-doping controls. The former 
chief investigator for WADA, Jack Robertson, who was a former 
special agent for our United States Drug Enforcement Agency, 
helped investigate some of the allegations involving Russian 
doping. On August 4th of 2016, Pro Publica ran a story quoting 
Mr. Robertson about his time at WADA. In the piece, Mr. 
Robertson implied that the Agency lacked adequate resources to 
investigate doping allegations and he said, and I quote, this 
cannot be Jack versus Russia. I need manpower. When money 
became available, WADA beefed up every department, but never 
investigations. I was working 11 hours a day, sometimes 18 
hours.
    So Mr. Tygart, you are a seasoned investigator. Does WADA 
have what it needs to investigate doping allegations when they 
arise, particularly when they involve complex cases such as 
Russia and allegations of state-sponsored or state-supported 
doping?
    Mr. Tygart. Clearly, resources is a question. I think the 
resources there in the budget could be better utilized to 
ensure investigations are done in the manner that they ought 
to, to get to the bottom of them and then hold those entities 
or organizations that cheat accountable under the rules.
    Mr. Tonko. And I am informed that WADA operates on a 
roughly $30 million budget, half of which is from the Olympic 
movement and half of which is from nations and states. So Mr. 
Tygart, again based on your expertise, is a $30 million budget 
enough to police the world anti-doping Code and should the U.S. 
be contributing more?
    Mr. Tygart. You know, I don't know the answer. Clearly, 
there's enough money in sport, at least. You saw in my 
testimony the funds the IOC has: a $1.4 billion fund, total 
assets of $3.9 billion 2015. The money's there, I think, 
whether it's sport, whether it's government. The question is, 
is protecting the integrity of the property that we put out to 
the marketplace important enough to spend more than, you know, 
one or two percent on? And I think absolutely it is, and we 
ought to ensure that WADA has those resources to do the job 
that they need to do however it ultimately is supported, 
whether directly through sport or additional funds from 
government.
    Mr. Tonko. Thank you. And Mr. Koehler, do you believe you 
have enough money to do your job?
    Mr. Koehler. No, I don't. And to give an exact figure 
today, I would be remiss to do that. What I can say is that in 
my opening remarks that we are developing a clean-slate budget 
based on the new reforms, based on the new capacities that we 
have to identify where and how much funding is needed. I will, 
however, say that we talk about WADA increased funding, but I 
think more importantly, or equally as important, is the 
injection of funds into the national anti-doping organizations. 
The national anti-doping organizations are the ones in the 
field day to day carrying out the business. And if they're not 
equipped to protect the clean athletes, then we're so far 
behind we'll never win this game.
    Mr. Tonko. Thank you. And according to news reports, the 
International Olympic Committee has a $1.4 billion fund, so out 
of a $1.4 billion fund the IOC currently provides WADA about 
$15 million a year. Mr. Phelps, given the extensive evidence we 
have heard today detailing state-sponsored doping control and 
manipulation, should the IOC provide more resources to WADA?
    Mr. Phelps. I mean, in my opinion, I think this is 
something that needs to be handled today and I think we need to 
find whatever way to take care of this issue we need to figure 
out and if that's more money, it's more money. You know, I 
mean, I think for me growing up in sports, I always looked at 
the greats and how they did it and that was my dream to be one 
of the best.
    And, you know, it is through hard work and dedication and 
it's sad to see that there are other athletes that choose to 
take different routes to get there. And they not only will 
sometimes test positive once, but multiple times, and they're 
still allowed to compete at an international level. And I don't 
think that's fair to the other athletes who are going in, then 
going to the grind every single day to try to make sure we 
accomplish our goals and dreams that we have.
    Mr. Tonko. Thank you. And Mr. Chair, I see my time is over. 
I yield back.
    Mr. Murphy. I now recognize Mr. Costello of Pennsylvania 
for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Dr. Budgett, I understand the IOC established a commission 
to reanalyze all samples of Russian athletes from the 2014 
Winter Olympics. Can you explain what testing is being 
conducted on these samples and does it include testing on both 
A and B samples?
    Dr. Budgett. Yes. The reanalysis program has been a huge 
success if you want to look at it that way. And as you know, 
before Rio we had over 100 adverse analytical findings from 
London and Beijing. As regards to the samples from Sochi, all 
the samples from the Russian athletes have been reanalyzed and 
the results of those are in case management at the moment. 
Also--and that was the A sample being reanalyzed.
    Also, all the samples are in the process of being 
forensically examined to look for evidence of manipulation. 
Some of that was done by McLaren. This is being done on a much 
more comprehensive and recordable way that can be used to bring 
an anti-doping rule violation to those individual athletes.
    Mr. Costello. And you may have answered that within this 
answer, but if you didn't, does the testing include a forensic 
analysis of the sample bottles to identify any scratches or 
marks that suggest they may have been tampered with?
    Dr. Budgett. Exactly. That's one of the, and to document 
that very exactly so that it can be used in a case.
    Mr. Costello. Question for all panelists, thank you for 
your time. I particularly want to thank the athletes for your 
testimony. I think that it is a great way to raise awareness 
about the need for even more integrity in the testing process, 
and certainly you are both American heroes and we recognize you 
as such and I think it is very worthy that you both took the 
time to prepare and be here today.
    Having said that I will ask you both first, but then I 
would like to open it up to all panelists, what would you deem 
to be appropriate progress 1 year from now or 2 years from now, 
you pick a time in the future, toward achieving a more 
independent and honest system?
    Mr. Nelson and Mr. Phelps and then whomever else would like 
to answer.
    Mr. Nelson. I think the first thing that has to happen is 
to hold all the stakeholders to the same level of 
accountability that you hold the athletes to. If we can 
accomplish that I think that will go a long way towards 
cleaning up sport. The second thing is I think you actually 
really do need to find a way to change the culture that allows 
this. We've talked about the differences between this area of 
the world and some other areas of the world. I still know for a 
fact that there are certain areas of the world where doping is 
just part of the culture.
    So you have to find out, there has to be some education and 
reeducation of the key players in those areas. So to me, if I 
could see those two changes, education and then the structural 
reforms that would implement the compliance, that would be a 
huge change.
    Mr. Phelps. I agree completely with everything he said. And 
for me it's kind of hard to, I think that we were talking 
earlier, somebody said it was 20 years to get to this point. It 
took us this long to get here, who knows how long it's going to 
take us to get forward. That's what's frustrating to me, you 
know, as an athlete who's spent over 20 years in the pool. This 
is something that needs to happen now and I'm glad people are 
actually starting to take us seriously and take this in a 
serious matter, because it is crushing sports for our youth and 
for everybody else around the world. So I mean, can you put a 
time limit on a year, can you put a time frame on a year? I 
don't know. It's hard hearing what I'm hearing and trying to 
put a time frame on it, I just have no clue.
    Mr. Tygart. I would say--and thank you for your question--
it doesn't take a year. These allegations first came out in 
December of 2014. We've had well over 2 years to deal with 
them. Today is the day. What could happen today is, WADA 
governance structure could happen. Remove sport from the 
executive functions because you can't promote and police. The 
IOC could take 500 million of its $1.4 billion fund, set it in 
a blind trust to fund WADA in its efforts moving forward. That 
could be done today.
    Mr. Costello. Well, and if I could just add, I think all 
three of those answers are spot on both in terms of exposing 
the frustration that athletes feel as well as what can 
technically be done to show a measurable impact.
    The final point that I just want to say is I do find it to 
be extremely important to note how a system that lacks the 
integrity, or a system that can be improved but yet has not yet 
been improved, what that does in terms of disillusionment to 
our athletes and what decisions athletes may be confronted with 
when they realize the reality of this situation. And certainly 
as an American we want to make sure that we are encouraging 
those in youth sports to conduct themselves in an ethical way 
and also to make sure that they aren't doing anything to their 
body that could cause them long-term health impacts. And to not 
have a system that reinforces that should be a cause for 
concern for every parent and every coach and every athletic 
trainer, and I don't think that we want to put our children in 
that sort of position or that conundrum. So I will thank you 
all for your time. I yield back.
    Mr. Murphy. Thank you. Now Ms. Clarke is recognized for 5 
minutes.
    Ms. Clarke. Thank you, Mr. Chairman, and I thank our 
panelists, in particular Mr. Nelson and Mr. Phelps, for putting 
a face to the athletic advocacy and demonstrating the courage 
to call out the unethical, disgraceful conduct of those who 
permit doping to continue to plague and to cheat the integrity 
of our international competitions. I truly appreciate, we truly 
appreciate your testimony here today.
    Mr. Chairman, the scope and scale of the allegations of 
doping against Russia presented in WADA's independent 
investigations are extremely troubling, and I would like to 
understand what sanctions Russia will face as a result of the 
findings. Subsequent to the release of Mr. McLaren's 
investigation in July of last year, WADA's executive committee 
recommended to the IOC that it decline entry for Rio 2016 of 
all athletes submitted by the Russian Olympic Committee and the 
Russia Paralympic Committee.
    Mr. Koehler, why did WADA recommend to the IOC that it 
decline all Russian entries for these two events?
    Mr. Koehler. I can't speak on behalf of our executive 
committee, however I can tell you that they reviewed the 
McLaren Report and deemed it appropriate to make those 
recommendations based on a call for the clean athletes.
    Ms. Clarke. Mr. Tygart, as you know the IOC did not order a 
collective ban of the Russian team, instead it deferred to the 
international sports federations to determine which athletes 
should or should not compete. In your piece, The Athletes 
Voice: A Force for Change, you stated, quote, at the Summer 
Games in Rio in 2016, scores of athletes competed despite not 
having been subject to credible anti-doping programs, end 
quote.
    You also pointed out in your testimony that the sports 
federations with few exceptions had neither the time nor 
expertise to deal effectively with the fallout from WADA's 
independent investigation. Mr. Tygart, can you elaborate on why 
moving this decision to the international sports federations 
may not have resulted in the credible deliberative process 
where only clean athletes were allowed to compete?
    Mr. Tygart. I'm not sure why it was done. The justification 
for not banning and following WADA's recommendation, the 
Russian Olympic Committee, was some justification on collective 
justice versus individual responsibility which really makes no 
sense, I don't think, when if that's your reasoning to then 
hand the decision on individual justice to 38 different sports 
organizations, that's not going to result in a consistent 
application in individual cases.
    So I think the justification that's been given doesn't hold 
up once it's scrutinized, and I think it ultimately resulted in 
shaking the system like it's never been shaken before. If the 
IOC would have done what the International Paralympic Committee 
did and what the IAAF, the international track and field did, 
to ban those athletes and the Russian federations from their 
games, we're not here today, quite frankly.
    Ms. Clarke. So my final question is for Dr. Budgett, but 
Mr. Koehler and Mr. Tygart please feel free to answer as well 
if either of you can speak to this. Dr. Budgett, can you 
describe for us any jurisdictional overlap at the IOC whether 
direct or indirect between those tasked with imposing sanctions 
for doping charges and those with a vote in determining future 
Olympic host cities?
    Dr. Budgett. I'm not sure I completely understand your 
question.
    Ms. Clarke. OK, let me repeat it again. Can you describe 
for us any jurisdictional overlap at the IOC whether direct or 
indirect between those tasked with imposing sanctions for 
doping charges and those with a vote in determining future 
Olympic host cities?
    Dr. Budgett. Yes, thank you. I think that's beyond my 
jurisdiction to answer. But to say at Rio as I mentioned, the 
jurisdiction over the sanctions was handed over to the Court of 
Arbitration of Sport so it was not within the IOC. And so the 
IOC have started the process of this independent testing 
authority by handing over the actual sanctioning process to an 
independent body and so it should be independent from any other 
function.
    Ms. Clarke. Mr. Tygart, do you have a sense of whether 
there are personnel in common in both entities?
    Mr. Tygart. Absolutely there is. In fact, WADA recommended 
to ban the Russians. There were members of that executive 
decision that also sit on the IOC that when the decision came 
to the IOC voted opposite of how they voted on the WADA 
decision. They wear two hats. They made two different outcomes 
on the determination. And then yes, it's the IOC that 
ultimately votes for who is awarded the Olympic Games.
    Mr. Murphy. I now recognize Mr. Carter of Georgia for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Ms. Clarke. I yield back, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here. It is commendable that you would take time out 
to be with us. And I especially want to thank you, Mr. Nelson. 
I am a fellow Georgian, so welcome. We are glad to have you 
here. What the people here don't recognize or don't realize I 
don't think is that we have got some really nice food courts in 
Georgia, but certainly not nice enough to warrant you being 
awarded a medal on that food court and I am very sorry that you 
had to receive it that way.
    Did I understand? I was reading and researching a little 
bit that you first heard about this through a reporter?
    Mr. Nelson. Yes, sir. I had no official contact from the 
IOC or any other movement within the Olympic movement.
    Mr. Carter. Dr. Budgett, I mean----
    Dr. Budgett. What I can say is that the process is an awful 
lot better now and there's been some fantastic medal ceremonies 
for athletes who have been re-awarded medals as a result of 
reanalysis.
    Mr. Carter. OK, and I am glad to hear that. But what about 
notifying them? Do you notify them before you notify the press?
    Dr. Budgett. The notification should come through the 
National Olympic Committee.
    Mr. Carter. OK, before the press is notified you would have 
notified the individual?
    Dr. Budgett. Of course.
    Mr. Carter. OK, thank you. I am glad we got that straight, 
Mr. Nelson. Mr. Nelson, you impress me and I have read your 
resume. I mean you are kind of the traditional Olympian. You 
just worked jobs and trained and just like I think most 
Olympians have, so I feel like I can relate to you. I will be 
quite honest with you and full disclosure here, I wanted to be 
an Olympian too. I did. And I will say more about that in just 
a minute, but unfortunately I ended up being not only short but 
slow, but nevertheless I had those same dreams.
    But my question is this. You seem to be as I said the 
traditional Olympian, the drug testing that you had to go 
through I am sure it was quite laborious and that it really 
impacted your personal life a lot.
    Mr. Nelson. I think Michael has probably had more tests 
than I've experienced in my lifetime, but I can tell you they 
show up at the most inopportune moments without apologies. Over 
time you build relationships with your collection officers and 
it's important because they learn a lot about you in the 
process. But yes, it's extraordinarily invasive, absolutely.
    Mr. Carter. Mr. Phelps, do you want to share some stories 
with us on that as well?
    Mr. Phelps. I mean, I'll agree it's the wildest times. I 
mean for me I would have, you know, training trips to Colorado 
Springs to train at altitude and I would have a morning off, 
but I would be woken up at 6:05 by the drug testers and I 
wouldn't be able to go back to sleep. So it's like, you know, 
those are the things that we're doing as athletes to make sure 
the sport's clean and I wish I could say that about everybody 
else.
    Mr. Carter. Can you elaborate on that a little bit? I am 
sure you have interacted with your competitors and your 
international competitors. What kind of experiences have they 
had? Do they have similar experiences or----
    Mr. Phelps. They don't bring it up. They don't talk about 
it.
    Mr. Carter. They don't talk about it.
    Mr. Phelps. No.
    Mr. Carter. But I suspect they aren't being woken up at, at 
least some of them maybe. I would like to think that some are.
    Mr. Phelps. Right. I mean you'd like to think that there's 
a number of the top ten, whatever it might be, top 20, top 
hundred in the world might be. I think, what is it, the IT, the 
International Testing Pool has a number of athletes who are 
usually under the same standards that, that we're all held 
under the same standards. And I mean for me it would be, I 
mean, I literally have to fill out every single day exactly 
where I am at that time. And if I leave, I mean now it's easy 
enough to where I can just get on the phone or get on the app 
and say my whereabouts are changing, this is where I'm going. 
You have to say what plane you're on, what hotel you're staying 
in, what your room is under, everything yada yada yada. So 
that's what we've gone through, I've gone through for 15, 16 
years.
    Mr. Carter. Right. You want to see time fly, you ought to 
get up here and wait for 5 minutes, and it flies. But 
nevertheless, Mr. Koehler, you mentioned something about 
working with the pharmaceutical manufacturers and being 
notified when, and working with them to figure out what drugs 
it is that you should be looking for. Can you just elaborate on 
that very quickly?
    Mr. Koehler. Very quickly, we have an arrangement with 
them, an agreement in a memorandum of understanding where 
they'll share information on preclinical trial substances so we 
can find a way to detect methods of when athletes or should 
they be taking them.
    Mr. Carter. Great. I am encouraged to hear that. I am a 
pharmacist by profession so that is important to me. I have 
just got a couple more seconds and I want to say this, and I am 
not trying to be dramatic here, but I think it is important. 
Obviously you have two world class athletes here who we are 
very proud of and are doing more than just competing. They are 
here testifying about a problem and trying to fix it, and thank 
you for doing that. This is important that it is fair to them, 
being world class athletes, but it is important to a lot of 
kids around the world. It was important to me.
    There was a time when the three of us were the same. We 
were all in the backyard. We were dreaming. I was standing on 
that cinder block and I was looking down at Michael Phelps and 
I was looking down at Adam Nelson and I was the Olympic 
champion. And we owe it to those kids, we owe it to those 
dreamers to make sure it is fair, to make sure they have the 
opportunity to compete. Thank you both. Thank you all for being 
here.
    Mr. Murphy. Thank you. I now recognize Dr. Ruiz for 5 
minutes.
    Mr. Ruiz. Thank you, Mr. Chairman. Thank you to all the 
panelists. The testimony that I have heard today is disturbing 
on a number of levels. I am outraged that Russian officials 
cheated, broken the rules, attacked the integrity of the 
Olympics to influence the outcome of the Olympics for their 
benefits. Kind of sounds familiar, doesn't it?
    Russia's widespread doping endangered the health of their 
own athletes. Not only did they put their own athletes at risk, 
but they also cheated the millions of athletes across the globe 
that work hard and play clean. It also violates the trust 
between nations who put their faith in a system and work toward 
the same goal, which is an even playing field for all athletes. 
We must have the proper checks and balances in place to ensure 
that no one athlete or one country cheats to have an unfair 
advantage.
    I am a physician. Dr. Budgett, we know that doping is the 
use of hormones, whether natural hormones or synthetic or blood 
transfusions, in order to increase the capacity to carry 
oxygen, meaning increasing the red blood cells which could 
cause an increase in viscosity, high risk for strokes, 
pulmonary emboli, and other serious, life-threatening health 
problems, and we are seeing this in the emergency departments 
with young athletes.
    What are the symptoms that you can tell a parent or a 
coach, somebody out there in the community to watch for in case 
a youth is using these type of performance-enhancing drugs?
    Dr. Budgett. Thank you. As I said in my statement this is a 
health attack on athletes and so often they are the victims. 
And it often goes from supplements then through, and there's a 
widespread abuse of supplements in sport, and then on through 
the use of prohibitive substances.
    Mr. Ruiz. So what are the signs and symptoms for parents 
and coaches to look out for?
    Dr. Budgett. Well, there can be also the side effects 
particularly from anabolic steroids of masculinization in 
females is the most obvious sign, but also severe acne. And 
then those hidden signs that you wouldn't see, cardiac, liver 
disease, and other things like that.
    Mr. Ruiz. Thank you. Since I am halfway through my time I 
am going to direct my questions to our Nation's heroes, Mr. 
Nelson and Mr. Phelps. You are a recent father, Boomer. I am a 
recent father, twin daughters Sky and Sage. You know, I just 
can't wait until they identify what their dreams are. And I 
know that there are a lot of kids out there who look up to you, 
who in my district who want to accomplish greatness, their 
greatness.
    What do you tell them when they are pressured to use drugs 
that will enhance their performance, Mr. Phelps? Look at them 
now and speak to them on camera.
    Mr. Phelps. My biggest thing is my whole journey started 
with a dream. That was it. And as I said earlier, my coach and 
I decided that we were going to come up with a plan and we were 
going to train on holidays. We were going to train every day of 
the year. You know, we were never going to take a day off for 
an extended period of time and get those 52 extra days for 
Sundays, for example, because nobody trained on Sunday. We'd 
get those 52 extra days than anybody else would, so we'd have 
that one step ahead of everybody. And I think that's like, you 
know, if you want to be great you have to do things that other 
people aren't willing to do.
    And for me, yes, it wasn't always fun getting up at 7 
o'clock on a Sunday and going to swim, but you know what, I 
wanted to accomplish my goal bad enough that nothing's going to 
stand in my way. And I think that, you know, like I said in the 
end, like I hope somebody breaks my record. I hope I have the 
chance to see that because it shows you that kids are truly, 
they're going to attack their dreams and their goals and 
they're going to go through hard times of course, we all do. 
But they're not going to give up.
    And that was something that I did in my career, I never, 
ever, ever gave up no matter how hard it got, and it got pretty 
hard at times. It got challenging for me. And for me, I would 
just love to see that in kids and the future of sport to be 
able to have that power that you can get from your mind and not 
being afraid to dream.
    Mr. Ruiz. Thank you. Mr. Nelson, what would you tell the 
kids that are being pressured or are flirting with the idea of 
use doping to enhance their performance?
    Mr. Nelson. Well, the first thing I would say to the 
parents is that it's OK to have this conversation. My dad sat 
down with me when I was 16 years old because I was a big guy 
and I was already lifting weights at the time, and he said, 
quite honestly he said, ``I'm going to disown you if you ever 
do this.'' That was enough for me. We had a conversation about 
it. So set their expectations early.
    The second piece is to talk about what the spirit of an 
Olympian really is. So we focus on the medals, but the medals 
are a reward for the work to get there. Most of what happens as 
an Olympic athlete happens when nobody else is watching. You 
have to have a gold medal process, and those processes must be 
based on principles. That's up to the parents. That's up to the 
people to decide what those principles are. If you allow for 
this to come into your life at any level, you're promoting this 
particular issue in a negative light. So that's what I would 
say.
    Mr. Ruiz. Thank you. Thank you very much.
    Mr. Murphy. Thank you. I now recognize Mr. Walberg of 
Michigan for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here. I appreciate this discussion.
    Mr. Koehler, how does WADA evaluate the role of other 
individuals in the anti-doping violations, for example, a 
coach, when it is found out that an athlete has tested positive 
and then ultimately find out it was a coach that encouraged him 
or her to dope, what happens? What is the punishment for the 
coach?
    Mr. Koehler. That's the responsibility of the national 
anti-doping organizations and the international federations. 
But when an athlete does test positive and is sanctioned, there 
is a requirement for the national anti-doping organizations, 
the international sport federations to look at and investigate 
the entourage and to see if there was an influence. Is it being 
done comprehensively now? I don't believe so. Should it be done 
more? Absolutely.
    Mr. Walberg. So if we find out there was really no 
punishment following up this, we know then the coaches have the 
potential of going on and training other athletes the same way. 
I mean are we doing something to get at that?
    Mr. Koehler. If a coach is found to be complicit in 
assisting an athlete they will be sanctioned, but there has to 
be the mechanisms to explore that.
    Mr. Walberg. Mr. Tygart, do you want to respond?
    Mr. Tygart. I would just say it's critically important to 
break down the systems in place that as we heard earlier abuse 
their own athletes like in Russia. And let's be clear, those 
athletes had no, they had very little choice, if any choice, 
but to participate in this sport system and state system to 
dope, that's abuse of those Russian athlete, and we ought to do 
everything possible to stop the abuse by systems of individual 
athletes. And it's exactly why we were so frustrated that the 
IOC refused to take any meaningful sanctions against the system 
that abused their own athletes in this process.
    Mr. Walberg. And that is where it has to stand from the 
world community to do that and ultimately sanctions have to be 
sure and complete or otherwise, Mr. Budgett, there will be more 
and more people like me that refuse to watch the figure skating 
going on, just sensing something is wrong there. But I wish you 
well on that Mr. Nelson and Mr. Phelps.
    And Mr. Phelps, Go Blue. Got to get that in. I was a 
wrestler in high school and college and I don't think doping 
would have changed my outcomes in any way, shape or form from 
my opponent or myself. But I never, I never will forget 
watching Dan Gable who was a contemporary of mine. I never 
wrestled him and there were many reasons why I never did. But 
at the NCAA finals watching him, 1970-71, against the guy he 
had defeated before from Washington and coming to the last 
seconds of the final period and Gable lost by one point as the 
result of a reversal.
    And knowing that Dan Gable had never lost high school or 
college ever, and this was the first loss in his career, and 
spent the next time before the Olympics beating his body into 
submission and he won a gold in the Olympics, and that is the 
sport. That is the thrill you were talking about that only most 
of us will ever experience by watching it, someone else do it. 
And Mr. Nelson, you have given me hope that that final second 
reversal that I had against Chicago Vocational, maybe I will 
get that point and win it.
    But let me ask the two of you, in your opinion what 
motivates athletes to use performance-enhancing drugs beyond 
just to win? What motivates them?
    Mr. Phelps. I don't know. I mean, that's the only thing I 
can say. I mean, as somebody who has competed clean for over 20 
years, I have no clue why somebody would do that.
    Mr. Walberg. Mr. Nelson.
    Mr. Nelson. So I'm a little older, so I can remember having 
conversations with some of the older athletes back in the '90s. 
And one of the things that was very common then at that time, 
and I can remember having a conversation with one specific 
athlete, he said you can't throw 20 meters clean. They had a 
prejudgment on what they could do by themselves. They never 
gave themselves enough time to develop the skill sets necessary 
to do that. My response to them was, no, you can't throw 20 
meters clean.
    Mr. Walberg. But you could.
    Mr. Nelson. What's that?
    Mr. Walberg. But you could.
    Mr. Nelson. I believed so, and I did.
    Mr. Walberg. Yes.
    Mr. Nelson. Not at the time, but I believed I could. So to 
answer the question specifically, I think it's a combination of 
insecurity and at some level the culture that they surround 
themselves in that says this is the answer, this is the way 
forward.
    Mr. Walberg. So until we find the answer to that question 
and able to deal with the athletes to a conclusion, we have to 
have sanctioning bodies that are resolute in doing whatever it 
takes to go above that evil nature as it were and make it fair 
for guys who will not do that at any cost. Thank you for being 
part of this panel. I yield back.
    Mr. Murphy. I thank the gentleman. I now recognize Ms. 
DeGette for a wrap-up, 30 seconds if you could.
    Ms. DeGette. Thank you very much, Mr. Chairman. I just want 
to again thank everybody for coming today and illuminating 
this. I was really encouraged both Mr. Koehler and Dr. Budgett 
to hear you say that your organizations are interested in 
making change.
    Mr. Tygart, I think your direct testimony has been very 
helpful. I was on this subcommittee in 2003 when we did the 
investigations on Salt Lake and the bid rigging, and we had the 
same kind of a situation where the IOC, you know, the 
intentions were good but they just weren't getting there. And I 
think because of illumination that we had and another hearing 
that it kind of nudged people around. I agree with you, Mr. 
Tygart. You know, we have been investigating this for a long 
time. We can figure out what we need to do about the rules and 
the funding and we can do it soon.
    So the chairman and I were just talking, I am hoping we 
will have another hearing soon, and I am hoping that the 
various organizations will come to that hearing and tell us the 
changes they are going to make. Thank you, Mr. Chairman.
    Mr. Murphy. I thank the gentlelady. You know, as I listen 
to everything you say I am thinking of where my office is in 
Mount Lebanon, Pennsylvania, three gold medalists from there. A 
guy named Kurt Angle, he used to run up the hill with other 
students on his back, or Suzie McConnell, a basketball player, 
or this new swimmer, Leah Smith, outstanding people.
    And it is amazing to think with all the other things going 
on that people like that can still shine and get their gold 
medal and not have to get it in a food court. And Mr. Nelson, I 
hope you get ``The Star-Spangled Banner'' played for you 
sometime with that.
    We have heard a lot of commitments to reform the system 
today, but particularly, Mr. Koehler and Dr. Budgett, will you 
commit to this committee to keep us informed of your progress 
on these reforms and to reappear before the committee once 
these reforms are completed?
    Mr. Koehler. On behalf of the World Anti-Doping Agency, we 
would be pleased to keep this committee up to date on the 
reforms and the actions that are moving forward. Yes.
    Mr. Murphy. Thank you. Dr. Budgett.
    Dr. Budgett. I can echo that.
    Mr. Murphy. Thank you. Mr. Tygart submitted additional 
documents to support his testimony, so I ask unanimous consent 
to enter those documents into the hearing record, and, without 
objection, we will do that.
    [The information appears at the conclusion of the 
hearing.]\1\
---------------------------------------------------------------------------
    \1\ The Report of the World Anti-Doping Agency, ``Report of the 
Independent Observers: Games of the XXXI Olympiad, Rio de Janeiro 
2016,'' has been retained in committee files and also is available at  
http://docs.house.gov/meetings/IF/IF02/20170228/105613/HHRG-115-IF02-
20170228-SD017.pdf.
---------------------------------------------------------------------------
    Mr. Murphy. Finally, in conclusion, I want to thank all the 
witnesses and Members that participated in today's hearing. I 
remind Members they have 10 business days to submit questions 
for the record. I ask that the witnesses all agree to respond 
promptly to the questions. With that, again thank you for 
attending this hearing, and we are adjourned.
    [Whereupon, at 12:35 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
